<html>
<title> - AN IRAQ UPDATE</title>
<body><pre>[Senate Hearing 109-869]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-869
 
                             AN IRAQ UPDATE

=======================================================================



                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                        THURSDAY, JULY 13, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     COMMITTEE ON FOREIGN RELATIONS


                      U.S. GOVERNMENT PRINTING OFFICE
34-858 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
    Prepared statement...........................................     6
Lugar, Hon Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Khalilzad, Hon. Zalmay, Ambassador to Iraq, Department of State, 
  Washington, DC.................................................     8
    Prepared statement...........................................    10
    Responses to questions submitted by Senator Lugar............    48
    Responses to questions submitted by Senator Biden............    53

                                 (iii)




                             AN IRAQ UPDATE

                              ----------                              


                        THURSDAY, JULY 13, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room 419, Dirksen Senate Office Building, Hon. Richard Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar, Hagel, Chafee, Coleman, Alexander, 
Sununu, Martinez, Biden, Sarbanes, Dodd, Kerry, Feingold, 
Boxer, Nelson, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. The committee meets today to 
review the situation in Iraq. We welcome our Ambassador, Zalmay 
Khalilzad, who has been on the job in Baghdad for just over a 
year. Ambassador, we are grateful to have you back today, safe 
and sound. We look forward to your update. As some of my 
colleagues are aware, you planned three other trips home during 
the last several months and graciously offered to testify each 
time before our committee. The events in Iraq, including 
critical efforts to name a Prime Minister and to finalize the 
Iraqi Government, required your presence in Baghdad. We are 
heartened that you have finally been rewarded with a break and 
that you are willing to share a part of that with us. We also 
appreciate the dedication of your Embassy team, which has 
worked under very, very challenging circumstances. Your efforts 
have contributed to several breakthroughs in forming a 
government that have opened new avenues for progress. The Iraqi 
Government under Prime Minister Maliki is inclusive and broadly 
representative. Significantly, it was approved by a vote of 95 
percent in the Council of Representatives. Its diversity 
improves the prospects that the political and sectarian 
divisions that have cut violently into Iraqi society can be 
overcome to institutionalize a functional government. But the 
people of Iraq desperately need their government to deliver 
tangible benefits. The government must begin to show progress 
in solving the vexing security situation that has produced 
daily violence, including ethnic killings and suicide bombings. 
The government must have a strategy for dealing with militias 
that are responsible for much of the ethnic violence. We are 
interested in your views on the condition of the Iraqi security 
forces and whether they can become a reliable force for 
stability. Beyond disbanding the militias, the government must 
build a Ministry of the Interior, a judiciary, and other civil 
institutions that are respected and capable of protecting the 
rule of law. The government also must establish effective 
institutions to fight corruption and create conditions that 
enable the economy to flourish. These include reliable 
electricity, communications and transportation, unambiguous 
commercial and investment laws, and the beginnings of a social 
safety net. The vast potential of the Iraqi economy is 
reflected by its growth during the past 2 years, despite the 
violence. The Oil Ministry reported another ray of hope in late 
June as production raised about 2.5 million barrels of oil a 
day, its highest level since the war began. Notably, 300,000 
barrels were being pumped from the northern city of Kirkuk to 
Turkey.
    Prime Minister Maliki has made progress in building ethnic 
and regional relationships that may contribute to stability. I 
was encouraged by his travels to Basra, where he saw firsthand 
the flaring violence, his engagement of the Kurdish Regional 
Government in their own territory, and his instructions to his 
ministers that they must not simply sit in the Green Zone. This 
week, he embarked on a trip to Saudi Arabia and other Persian 
Gulf States to gather support for a reconciliation initiative 
intended to bridge the gap between Shiites and Sunni Arabs. A 
preparatory meeting for an international compact on financial 
support for Iraq is scheduled to occur in Baghdad on July 20. 
We are interested to hear from you on the prospects for such a 
compact that might arise and what it might mean for stability 
in Iraq.
    At the heart of efforts to bring security to Iraq and end 
sectarian violence is Prime Minister Maliki's 24-point National 
Reconciliation Plan. This plan is aimed at creating among 
Iraqis of all ethnicities a stake in being Iraqi. It 
encompasses the decommissioning and the reintegration of 
militias, the release of detainees who have not been charged, 
an effort to bring those willing to abandon violence into the 
political process, the reevaluation of security activities in 
the peaceful provinces, an appeal to regional governments to 
cease their support of the insurgency, and assurances to Sunnis 
and all minority groups that they will have a significant role 
in society. We are eager for your assessment of whether such a 
reconciliation plan can be implemented. If Prime Minister 
Maliki can bring enough groups on board, can a reconciliation 
plan reduce violence, stabilize the economy, and solidify the 
position of the government? What is the United States doing to 
support this effort?
    Ambassador, we welcome you back to the committee. We look 
forward to our discussion with you this morning. As Senator 
Biden arrives, I will recognize him as appropriate for his 
opening statement, but we are most eager to hear from you. I 
would say to members of the committee, we are all cognizant of 
the work on the floor on behalf of the Homeland Security 
appropriations bill, which the leadership has indicated will be 
completed today, involving rollcall votes continuously 
throughout the day and maybe even interrupting our hearing. We 
ask for your indulgence, Ambassador, as we come and go, as may 
be necessary, but we will try to accommodate the questions of 
all Senators in due course. It will be the Chair's hope to 
conclude the hearing by noon so that you have some idea of your 
time requirements, as well as those of Senators. I now call 
upon you for your testimony. Your full statement will be a part 
of the record--wait just a moment.
    The distinguished ranking member has arrived just at the 
right time and he is recognized for his opening statement.

 OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR 
                         FROM DELAWARE

    Senator Biden. Mr. Ambassador, it is a pleasure to see you. 
I was waiting for you in Baghdad. I was in the wrong venue. 
Thank you very, very much for being here and let me begin by 
saying, publicly, what an incredible job I think you are doing. 
I think you are, in my experience, one of the most gifted 
diplomats I have ever worked with and in the most difficult 
circumstance, actually, the two most difficult circumstances, 
Afghanistan and Iraq. I want to thank you and I am sure if 
Senator Jack Reed were here, he would--he probably already has 
extended his thanks to you and to your staff in Baghdad. We put 
a heavy burden on them and they got us in and out of Basra and 
Fallujah and Baghdad and I know you know better than anyone 
that that is not an easy task for them and I just want to 
publicly thank you and your first rate staff that is there.
    I might point out, which everyone already knows, but these 
are civilians who were there at some considerable risk and I 
think we should recognize not only their significant 
professional input in terms of the diplomacy and foreign 
policy, just of personal courage and I want to acknowledge 
that.
    We are fortunate, as I indicated, to have you and your 
staff in Baghdad and I would like to, Mr. Ambassador, talk to 
you about what it seems to be, for me, parallel realities. If 
you spend time as you have more than anyone, with our military 
and your staff, you can't help but come out of Iraq other than 
impressed with the job both the military and the State 
Department personnel are doing under very difficult 
circumstances. But for all the achievements, the larger reality 
is this, in my impression: That Iraq and the success of our 
mission there remains a prisoner of a terrible and growing 
violence and a lack of a sufficient plan--coordinated plan with 
the new government, as well--to stop it. I still don't see a 
clear strategy for victory in Iraq. I do see a strategy for 
preventing things from outright defeat but I don't--I did not 
come away with a clear strategy for victory.
    As you have acknowledged, sectarian violence has trumped 
the insurgency and foreign terrorists as the main security 
threat in Iraq, although clearly--clearly the insurgency is a 
significant problem and it is spiraling in Baghdad in spite of 
the much publicized operations to secure the city with more 
than 50,000 forces. It seems to me that there are three 
overwhelming problems that feed the violence: First, the 
absence of a political settlement that gets the Sunni buy-in 
and a commitment from major groups to pursue their interests 
peacefully. Second, the absence of a governing capacity to 
deliver basic services to the Iraqi people, and third--and by 
the way, I mean as part of that, I mean the civilian agencies, 
the Ministry of Education, the Ministry of Agriculture, the 
Ministry of Justice, et cetera--and third, a significant 
unemployment problem that is swelling the ranks of the militia, 
the insurgency, and criminal gangs.
    In speaking to some of our flag officers there, several of 
them pointed to the fact--one actually used the phrase, 
``Senator, if you want me to be able to deal with the militias 
that have actually increased in their numbers since the 
election last December, get the Department of Agriculture 
working.'' He said this used to be the breadbasket of the 
entire Middle East. If you could get that up and moving, he 
said, that would take care of the militia more than any single 
other thing that could happen, this in the opinion of one 
general. So, Mr. Ambassador, I know you know this better than 
we do but if we don't make these challenges, I think we risk 
having traded a maniacal dictator for some chaos.
    Let me say a few words about each one of these things. 
First, the actions of a political solution, the Sunni 
insurgence, in my view, won't stand down and the Shia militia 
violence won't stop and so how do we cut that Gordian knot? I 
know you recognize the centrality of a political solution. Last 
year, you pulled, I believe, a rabbit out of the hat. You were 
kind enough to put up with me being there as well, back in 
December. I remember vividly--vividly--and coming back, telling 
everyone who would listen, that your--I didn't know how you did 
it but in the last couple weeks before that constitution was 
put out there, you essentially got an amendment to the 
constitution, saying this is open for further negotiation. I 
won't go through the detail that you know better than I: Four 
months after the Parliament meets, that there is a committee 
about so and so forth. But you--I think that is the reason why 
there was such Sunni participation and I think that agreement 
averted a crisis.
    But now, I'm told by a number of people that we are not any 
longer pushing the Iraqis to follow through with amendments, 
that somehow--I'm not mentioning anyone in particular and 
Senator Reed found the same experience--speaking to a number of 
people on the ground in Iraq last weekend. When I'd raise the 
amendment process, they said, well look, this is kind of--you 
know, maybe we should put that off, down the road. We're going 
to move this further down. And from my perspective and I would 
like you to speak to that, I think that is a gigantic mistake. 
Maybe I'm wrong but I think it is a big mistake. Whether by 
amendment or some other mechanisms, the Shia-led government, it 
seems to me, have to take significant steps beyond ministries 
to get Sunni buy-in. In particular, I think they have to 
guarantee some form or another, some share of the single 
biggest resource that country has, is oil. In addition, the 
government has to be willing, I think, to move against a Shia 
militia with the same intensity that it moves against the 
Sunni-based insurgency.
    After meeting with Prime Minister Maliki, I'm not sure--and 
again, you know him better than I do--he is an impressive man. 
But I came away not all assured. You know--you have been with 
me in those meetings. I'm very straightforward and he was very 
receptive to my being straightforward but the answers I got 
raised two possibilities with me. Either, one, he was so 
constrained by trying to keep together his Shia constituency, 
which is somewhat disparate, as we spoke to the Brits down in 
Basra. They said, ``Look, there is not an insurgence here, 
there is a competition among Shia who is going to be in charge 
when everybody leaves.'' So I don't know whether it's that or 
whether a lack of desire on his part--I think he is more 
committed to dealing with demobilizing the militia than he is 
to getting Sunni buy-in. Maliki has contended with, as I said, 
the politics of the Shia coalition. If he gives up too much of 
the Sunnis or moves too harshly against the Shia militia, I 
think he risked losing support of his coalition. I would like 
you to speak to that at some point.
    It seems to me, Mr. Ambassador, we need to keep up pressure 
to bring the Sunnis in, to keep the militia out, which will 
marginalize Sunni insurgents. But we shouldn't be the only ones 
doing it because our influence is a diminishing asset. That's 
why I think it is so urgent to get the international community 
and Iraqi's neighbors in on this deal. I don't see any plan 
beyond the so-called compact, which I'm anxious to hear you 
talk about because that has real promise. I know you've been 
pushing it for some time, the need to expand conversation. Now, 
maybe you've had full, unfettered support from all elements of 
the administration but my observation--and I want you to speak 
to that--but my observation is you haven't. So I'm anxious to 
hear that.
    The second challenge is the governing capacity and really 
the part that I'm focusing on more than I have in the past. If 
a government can't do basic things like turn on the lights, 
provide clean water, make payroll, supply and sustain the army, 
then it seems to me, we'll be leaving behind as we leave, a 
failing state. It seems to me we need this massive civilian 
effort to build Iraqi Government like the effort our military 
is making to train and build a capacity of the security forces 
in other ministries. We have that need. We need a massive 
effort. With your staff at the Embassy, they indicate there is 
such a plan. They indicate that there is such a plan. They 
indicate that there are clear tactics, targets, and benchmarks. 
I'm anxious--if you're not prepared to do it now, at some 
point, you share with us those actual documents, those actual 
game plans, which I'm told exist.
    After his visit, the President talked about sending some of 
the Cabinet Secretaries to Iraq and this is encouraging, even 
if it is 3 years down the road. He would go to State and AID, 
Agriculture, Commerce, HHS, and so forth and brought all the 
employees together and personally made an appeal. Personally 
make an appeal. As patriotic Americans, they know how difficult 
this is but ask for significant volunteers from our agencies to 
go into what I think are desperate agencies--one senior 
official, Mr. Ambassador,--said, ``I'll never complain about 
bureaucracy again.'' He said, ``I wish there was one here. I 
wish there was somebody to deal with.'' So even as we start to 
drawdown our military forces, we have to make a massive 
civilian effort and if we don't, I see two things: Complete 
chaos or the emergence of a military strongman as the training 
of an Iraqi Army outpaces the civilian reconstruction and out 
of frustration, the military takes things over. The third 
challenge is the massive unemployment. So that we can get to 
the Ambassador's statement, I will put the rest of my statement 
into the record, but this issue is very, very important.
    I'll just give one example so my colleagues know what I'm 
talking about and I know they know as much about this as I do 
and maybe more but meeting with the No. 2 military man in Iraq, 
he talked about the situation in Baghdad and around and near 
Sadr City and he said, ``Look, we've built this great water 
treatment facility.'' He said, ``It's the largest water 
fountain in the Middle East,'' meaning that folks can take 
their buckets and they can go and get the water and he raised 
the question about why--were we going to be able to get the 
water from this facility into the homes? And he said, the 
question was raised whether or not you bring in a large outfit 
with backhoes and engineers and bulldozers and do it and he 
said--and don't hold me to this. You'd know the number better 
than I but I can't remember whether he said 3,000 or 4,000. He 
said, ``Let me have 3,000 or 4,000 Iraqis I can hire to dig 
ditches, to lay the pipe, to move this,'' he said, ``that will 
help me more in terms of violence and insurgency in that part 
of that community than if you, in fact, give me more trainers 
over here.'' So there is a lot to talk about, Mr. Ambassador, 
no one better to talk about it than you and--excuse me one 
second.
    Mr. Ambassador, I want to--I'm going to probably ruin his 
career but I want to particularly compliment you on Clarke 
Cooper. I don't know whether everybody knows him. He is a guy 
that leaves the embassy, gets in those helicopters on these 
CODELS and sits next to the guy with the nine millimeter 
machine gun and goes on every one of these, at least every time 
I've been there in the recent past. He is incredibly 
knowledgeable, he is one of the kind of guys I like at State 
and you don't often get and as you ask him a question, you get 
an answer. So I'm sure my colleagues have visited and all of us 
have, share my view but I see him in the audience there and I 
want to publicly compliment him. He has--does a first rate job, 
besides speaking the language, which is a nice thing to have a 
guy along who can do that.
    Anyway, thank you very much, Mr. Chairman. Thank you, Mr. 
Ambassador, I'm anxious to hear from you.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    Mr. Ambassador, welcome. I'm sorry that Senator Jack Reed and I 
didn't have a chance to see you in Baghdad last week. I look forward to 
catching up today.
    We are fortunate to have someone of your caliber in Baghdad. I 
can't think of anyone better for such a consequential job. And your 
civilian team and our men and women in uniform deserve our gratitude 
for their courage and commitment.
    Mr. Ambassador, it seems to me that there are two parallel 
realities in Iraq right now. If you spend time with our military and 
with your staff, you can't help but be impressed with the job they're 
doing, under very difficult conditions. But for all their achievements, 
the larger reality is this is my impression: Iraq--and the success of 
our mission there--remains a prisoner to terrible and growing violence 
and the lack of a plan to stop it. I still do not see a clear strategy 
for victory in Iraq--I see a strategy to prevent outright defeat.
    As you've acknowledged, sectarian violence has trumped the 
insurgency and foreign terrorists as the main security threat in Iraq. 
It is spiraling in Baghdad in spite of a much-publicized operation to 
secure the city with more than 50,000 forces.
    Three overwhelming problems feed the violence.
    First, the absence of a political settlement that gets Sunni buy-in 
and a commitment from the major groups to pursue their interests 
peacefully.
    Second, the absence of any governing capacity in the civilian 
agencies to deliver basic services to the Iraqi people.
    And third, mass unemployment which is swelling the ranks of the 
militias, the insurgency, and criminal gangs.
    If we do not meet these challenges, we risk trading a dictator for 
chaos.
    Let me say a few words about each one.
    First, in the absence of a political solution, the Sunni insurgents 
won't stand down and the Shiite militia violence won't stop. We have to 
cut this Gordian knot.
    I know you recognize the centrality of a political solution. Last 
year, you pulled a rabbit out of a hat by engineering an agreement to 
allow the Constitution to be amended. That agreement averted a crisis 
and ensured Sunni participation in December's elections.
    But now I'm told we are no longer pushing the Iraqis to follow 
through with amendments. That's a big mistake. Whether by amendment or 
some other mechanism, the Shia-led government has to take significant 
steps beyond giving them ministries to bring the Sunnis in. In 
particular, they must guarantee Sunnis a share of oil revenues. In 
addition, the government has to be willing to move against the Shia 
militia with the same intensity that it moves against the Sunni-based 
insurgency.
    After meeting with Prime Minister Maliki--and he's an impressive 
man--I'm not sure about the government's ability or willingness to 
amend the Constitution or to effectively demobilize the militias.
    Maliki has to contend with the politics of the Shia coalition. If 
he gives up too much to the Sunnis, or if he moves too harshly against 
the Shia militia, he risks losing the support of his coalition.
    We need to keep up the pressure to bring the Sunnis in and keep the 
militia out, which will marginalize the Sunni insurgents. But we 
shouldn't be the only ones doing it because our influence is a 
diminishing asset. That's why it is so urgent we work the international 
community and Iraq's neighbors into the effort. I see no plan to do 
that, beyond the so-called ``compact'' which is limited to getting 
others to put more money into Iraq.
    The second challenge is governing capacity. If the government can't 
do basic things--like turn on the lights, provide clean water, make 
payrolls, or supply and sustain the army--then we'll leave behind a 
failing state when our troops come home.
    We need a massive civilian effort to build the Iraqi Government, 
like the effort our military is making to train and build the capacity 
of the security forces and ministries. Your staff at the Embassy 
indicate there is such a plan--with clear tactics, targets, and 
benchmarks. If so, you should share it with us.
    After his visit, the President talked about sending some of his 
Cabinet Secretaries to Iraq. This is encouraging, even if it's 3 years 
down the road.
    But I wish he had gone himself to each of our key agencies--State, 
AID, Agriculture, Commerce, HHS, and so forth--and brought their 
employees together and personally made an appeal to them to go to Iraq 
to help Iraq's ministries get up to speed.
    Even as we start to draw down our military forces, we have to make 
this massive civilian effort. If we don't, we will see one of two 
things: Complete chaos or the emergence of a military strongman as the 
training of the Iraqi Army outpaces civilian reconstruction and, out of 
frustration, the military takes over everything.
    The third challenge is massive unemployment. Angry young men are 
joining criminal gangs, insurgent groups, and militia at an alarming 
rate for one simple reason--they get paid.
    We need specific plans to generate employment and give young men an 
alternative. The military has proposed solutions like investing in the 
agricultural sector, which can soak up lots of the unemployed. But the 
military can't do this alone.
    The President's budget for civilian reconstruction is dropping 
precipitously. Foreign donors are not making good on old pledges or 
making new ones. Even with oil prices up, the resources aren't there to 
create jobs.
    Mr. Ambassador, our generals made clear that we will begin leaving 
Iraq this year. But as we leave Iraq, it is very important what we 
leave behind. A few months back, I offered a comprehensive plan for a 
political settlement in Iraq and to overcome these fundamental 
challenges.
    Whether what I proposed was right or wrong isn't the issue. What is 
the issue is the lack of a strategy for success in Iraq. The President 
owes that to our soldiers and their families, to the Iraqis, and to the 
American people.

    The Chairman. Thank you, Senator Biden, and let me just say 
that I, for one, appreciate this Senator's indefatigable 
interest in the country. I think he has a room over there. I 
admire your stamina and your courage. I will call now upon our 
Ambassador. Your statement will be made part of the record in 
full but please do not feel inhibited. This is your time, and 
we want to hear from you. Then we will have questions from our 
Senators. Please proceed.

  STATEMENT OF THE HON. ZALMAY KHALILZAD, AMBASSADOR TO IRAQ, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Khalilzad. Mr. Chairman, Senator Biden, and 
distinguished members, I welcome this opportunity to share my 
assessment of the situation in Iraq and my thoughts on the way 
ahead. I have seen many of you in Baghdad and I want to thank 
you for your visit and your interest in achieving a good 
outcome in Iraq. Your visit also means support for the many 
courageous Americans who serve in both military and civilian 
posts in Iraq. I appreciate, Mr. Chairman, your comments and 
Senator Biden, your comments about the Americans who serve in 
Iraq. I will be brief in my opening remarks and I look forward 
to exchanging views with you in the remaining time.
    I'll begin by giving my bottom-line assessment. Americans 
should be strategically optimistic about Iraq, even as the 
continuing difficulties in Iraq will require tactical patience. 
The challenges of curbing sectarian violence or defeating 
terrorism are difficult and will require the full commitment of 
the Iraqi Government and the coalition to resolve. And it will 
take time. However, the political progress that has been made 
in Iraq has created opportunities and has put Iraq on the right 
trajectory. The balance sheet in terms of key developments 
during the past year has many positives, as well as some new 
and continuing causes for concern. The positive developments, 
which give the Iraqi Government and friends of Iraq real hope, 
create opportunities going forward to improve the situation in 
Iraq.
    They include a tectonic shift that has taken place in the 
political orientation of the Sunni Arab community. The Sunni 
Arabs who boycotted the January 2005 elections have largely 
participated in the political process with representation in 
the National Assembly and the government proportional to their 
share of the population. Shia Arabs, who have been the 
principle target of sustained attacks by terrorists, have 
exercised enormous restraint, even as some extremist Shia 
groups have opted for sectarian retaliation. Kurdish leaders 
remain committed to a future as part of Iraq and have played 
constructive roles in shaping a cross-ethnic and cross-
sectarian government. Iraqi leaders succeeded in forming Iraq's 
first ever government of national unity, with nonsectarian 
security ministers, agreements on rules for decisionmaking on 
critical issues and on the structure of institutions of the 
executive branch and a broadly agreed-upon program. All 
elements of the Government of National Unity have endorsed 
Prime Minister Maliki's National Reconciliation and Dialogue 
Project, which is designed to address the fundamental issues 
dividing Iraqis and to induce elements of the armed opposition 
to lay down their arms and join the political process. A divide 
has opened up between the Iraqi Sunni Arab insurgency and al-
Qaeda and irreconcilable elements, as evidenced by the fact 
that some insurgent groups have offered to provide intelligence 
or to conduct operations against the terrorists. Key regional 
countries, as well as the international community, have 
reassessed their perspectives on the future if Iraq, with more 
and more coming to the view that the new government will 
succeed and opting to increase their nonmilitary involvement in 
Iraq.
    At the same time, several challenges to Iraqi's new 
government persist or have become more severe and will require 
adjustments and new efforts to resolve. Terrorists have adapted 
by exploiting Iraq's sectarian faultlines, and sectarian 
violence has now become the significant challenge to Iraq's 
future. The security situation in Baghdad remains extremely 
difficult as the capital has become the focal point of 
terrorist and sectarian violence. A few countries, particularly 
Syria and Iran, continue to engage in actions to destabilize 
Iraq, providing sanctuary, training, arms, and financing to the 
extremists fighting the new Iraqi Government.
    In light of these developments, we are adjusting our 
strategy and policies. The central focus now is to stem 
sectarian violence, both by political and security measures, 
even as we continue other efforts to stabilize the country and 
get Iraq to stand on its own feet as soon as possible by taking 
increasing responsibility for its own security.
    First, we are working with Iraqi leaders to enhance unity 
and to take political measures to defuse sectarian violence. 
Iraqi leaders will soon begin to work on developing consensus 
approaches to several key issues arising out of the new 
Constitution, including consideration of amendments under a 
fast-track process, enactment of legislation on the development 
of Iraq's oil and gas resources and a review of the de-
Baathification Commission. In addition, Prime Minister Maliki's 
National Reconciliation and Dialogue Project will seek to 
capitalize on the expressions of interest among many insurgent 
groups to reconcile with the new government and join in a 
common fight against those who persist in terrorist actions.
    Second, we are working with the Iraqi Government to improve 
the effectiveness of the Iraqi security forces and to adopt 
security measures to curb sectarian violence. Building on the 
successes in standing up Iraqi forces, the Iraqi Government and 
the coalition will implement plans to accelerate the upgrading 
of Iraqi combat and support capabilities. Prime Minister 
Maliki, as well as Minister of Interior Boulani, has made a top 
priority of reforming the Ministry of Interior, including the 
purging of sectarian forces in the police. Iraqi leaders, with 
coalition support, are developing a program to demobilize, 
decommission, and reintegrate foreign militia and other 
unauthorized military formations. The Iraqi Government and the 
coalition will take advantage of the reconciliation process to 
widen the division between Sunni Arab insurgents and al-Qaeda. 
The Iraqi Government and the coalition are also carrying out a 
series of focused stabilization operations that will target 
sectarian militants and develop enduring security in major 
cities, starting with Baghdad.
    Third, we are supporting the Iraqi Government's new effort 
to increase regional and international political and economic 
support. The new contacts and cooperation between Iraq and key 
regional countries, such as Saudi Arabia, the United Arab 
Emirates, and Kuwait are encouraging. Iraq's neighbors and the 
international community can do more to help the Iraqi people, 
and we will work actively to ensure the success of Iraqi 
efforts, in cooperation with the United Nations, to develop an 
International Compact, which will commit Iraq to key reforms in 
exchange for assistance needed to complete Iraq's transition to 
a free-market democracy. At the same time, we will work with 
the Iraqi Government to end the destabilizing policies of Iran 
and Syria.
    Fourth, we are implementing programs to help Iraqis improve 
governance from top down and bottom up. Ministry advisory teams 
have been deployed to 10 key ministries. Five provincial 
reconstruction teams have been deployed and are engaged in 
efforts to improve local governance and jump-start economic 
development in provinces.
    Fifth, as these political, security, and diplomatic actions 
are pursued, we will support the new Iraqi Government's 
strategy to realize the country's enormous economic potential. 
Prime Minister Maliki and Deputy Prime Minister Saleh have the 
right priorities, as explained yesterday in the speech to the 
National Assembly by the Prime Minister. They are prepared to 
move forward with the difficult actions--for example, curbing 
subsidies and fighting corruption that are essential to 
success. The United States and other friends of Iraq will help 
Iraq's new leaders deliver results.
    In closing, I want to emphasize that despite the present 
difficulties, a path exists to success in Iraq. Moreover, the 
success of Iraq is critical to the evolution of the Middle 
East. Most of the world's security problems emanate from the 
region from Morocco to Pakistan and shaping its evolution has 
become the defining challenge of our time. The struggle for the 
future of Iraq is vital to the future of the world. If Iraqis 
work together against terrorism and sectarianism, and if we 
Americans and other friends of Iraq support them, we will 
succeed.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Khalilzad follows:]

Prepared Statement of Hon. Zalmay Khalilzad, Ambassador to Iraq, State 
                       Department, Washington, DC

    Mr. Chairman, Senator Biden, and distinguished members, I welcome 
this opportunity to share my assessment of the situation in Iraq and my 
thoughts on the way ahead. I have seen many of you in Baghdad, and I 
want to thank you for traveling to Iraq. Your visits demonstrate your 
interest in achieving a good outcome in Iraq and your support for the 
many courageous Americans working in the U.S. mission. I will be brief 
in my opening remarks, and I look forward to exchanging views with you 
in the remaining time.
    I will begin by giving my bottom-line assessment. Americans should 
be strategically optimistic about Iraq, even as the continuing 
difficulties in Iraq will require tactical patience. The challenges of 
curbing sectarian violence or defeating terrorism are difficult and 
will require the full commitment of the Iraqi Government and the 
coalition to resolve. However, the political progress that has been 
made in Iraq has created opportunities and put Iraq on the right 
trajectory.
    The balance sheet in terms of key developments during the past year 
has many positives, as well some new and continuing causes for concern. 
The positive developments, which give the Iraqi Government and friends 
of Iraq real hope, create opportunities going forward to improve the 
situation in Iraq. They include the following:

  <bullet> A tectonic shift has taken place in the political 
        orientation of the Sunni Arab community. Sunni Arabs, who 
        boycotted the January 2003 election, have largely participated 
        in the political process, with representation in the national 
        assembly proportional to their share of the population.
  <bullet> Shia Arabs, who have been the principal target of sustained 
        attacks by terrorists, have exercised enormous restraint, even 
        as some extremist Shia groups opted for sectarian retaliation.
  <bullet> Kurdish leaders remain committed to a future as part of Iraq 
        and have played constructive roles in shaping a cross-ethnic 
        and cross-sectarian government.
  <bullet> Iraqi leaders succeeded in forming Iraq's first-ever 
        government of national unity, with nonsectarian security 
        ministers, agreements on rules for decisionmaking on critical 
        issues and on the structure of institutions of the executive 
        branch, and a broadly agreed-upon program.
  <bullet> All elements of the government of national unity have 
        endorsed Prime Minister Maliki's National Reconciliation and 
        Dialogue Project, which is designed to address the fundamental 
        issues dividing Iraqis and to induce elements of the armed 
        opposition to lay down their arms and join the political 
        process.
  <bullet> A divide has opened up between the Iraqi Sunni-Arab 
        insurgency and al-Qaeda and irreconcilable elements, as 
        evidenced by the fact that some insurgent groups have offered 
        to provide intelligence or to conduct operations against the 
        terrorists.
  <bullet> Key regional countries, as well as the international 
        community, have reassessed their perspectives on the future of 
        Iraq, with more and more coming to the view that the new 
        government will succeed and opting to increase their 
        nonmilitary involvement in Iraq.

    At the same time, several challenges to Iraq's new government 
persist or have become more severe and will require adjustments and new 
efforts to resolve:

  <bullet> Terrorists have adapted by exploiting Iraq's sectarian 
        faultlines, and sectarian violence has now become the 
        significant challenge to Iraq's future.
  <bullet> The security situation in Baghdad remains extremely 
        difficult, as the capital has become the focal point of 
        terrorist and sectarian violence.
  <bullet> A few countries, particularly Syria and Iran, continue to 
        engage in actions to destabilize Iraq, providing sanctuary, 
        training, arms, and financing to the extremists fighting the 
        new Iraqi Government.

    In light of these developments, we are adjusting our strategy and 
policies. The central focus is now to stem sectarian violence, both by 
political and security measures, even as we continue other efforts to 
stabilize the country.
    First, we are working with Iraqi leaders to enhance unity and to 
take political measures to defuse sectarian violence. Iraqi leaders 
will soon begin to work on developing consensus approaches to several 
key issues arising out of the new Constitution, including consideration 
of amendments under a fast-track process, enactment of legislation on 
the development of Iraq's oil and gas resources, and review of de-
Baathification. In addition, Prime Minister Maliki's National 
Reconciliation and Dialogue Project will seek to capitalize on the 
expressions of interest among many insurgent groups to reconcile with 
the new government and join in a common fight against those who persist 
in terrorist actions.
    Second, we are working with the Iraqi Government to improve the 
effectiveness of the Iraqi security forces and to adopt security 
measures to curb sectarian violence. Building on the successes in 
building up Iraqi forces, the Iraqi Government and the coalition will 
implement plans to accelerate the upgrading of Iraqi combat and support 
capabilities. Prime Minister Maliki, as well as Minister of Interior 
Boulani, has made a top priority of reforming the Ministry of Interior, 
including the purging of sectarian forces in the police. Iraqi leaders, 
with coalition support, are developing a program to demobilize and 
reintegrate armed militias. The Iraqi Government and the coalition will 
take advantage of the reconciliation process to widen the divisions 
between Sunni-Arab insurgents and al-Qaeda. The Iraqi Government and 
the coalition are carrying out a series of focused stabilization 
operations that will target sectarian militants and develop enduring 
security in major cities, starting with Baghdad.
    Third, we are supporting the Iraqi Government's new efforts to 
increase regional and international political and economic support. The 
new contacts and cooperation between Iraq and key regional countries, 
such as Saudi Arabia, the United Arab Emirates, and Kuwait are 
encouraging. Iraq's neighbors and the international community can do 
more to help the Iraqi people, and we will work actively to ensure the 
success of Iraqi efforts, in cooperation with the United Nations, to 
develop an international compact, which will commit Iraq to key reforms 
in exchange for assistance needed to complete Iraq's transition to 
free-market democracy. At the same time, we will work with the Iraqi 
Government to end the destabilizing policies of Syria and Iran.
    Fourth, we are implementing programs to help Iraqis improve 
governance from the top down and the bottom up. Ministry advisory teams 
have been deployed to 10 key ministries. Five provincial reconstruction 
teams have been deployed and are engaged in efforts to improve local 
governance and jump-start economic development in the provinces.
    Fifth, as these political, security, and diplomatic actions are 
pursued, we will support the new Iraqi Government's strategy to realize 
the country's enormous economic potential. Prime Minister Maliki and 
Deputy Prime Minister Saleh have the right priorities. They are 
prepared to move forward with the difficult actions--for example, 
curbing subsidies and fighting corruption that are essential to 
success. The United States and other friends of Iraq will help Iraq's 
new leaders deliver results.
    In closing, I want to emphasize that despite the present difficult 
situation, a path exists to success in Iraq. Moreover, the success of 
Iraq is critical to the evolution of the Middle East. Most of the 
world's security problems emanate from the region from Morocco to 
Pakistan, and shaping its evolution has become the defining challenge 
of our time. The struggle for the future of Iraq is vital to the future 
of the world. If Iraqis work together against terrorism and 
sectarianism, and if Americans and other friends of Iraq support them, 
we will succeed.

    The Chairman. Well, thank you very much, Ambassador. We 
have good attendance today. In fact, you have brought together 
a quorum of the committee, right off the bat, which is not 
easily come by. Let me say that in view of that, we'll have a 
7-minute question period and try to move rapidly with our 
colleagues. I'll begin the questioning by making the comment 
that I would like for you to respond to. As you are an 
observer, obviously, of what is going on in Iraq, you also 
observe what is occurring in America. There is increasing 
impatience in the public for progress on the part of the Maliki 
government, specifically, with regard to the priority of 
disarming the militias, if that is the key to the end of the 
insurgency. Likewise, there is some question as to whether the 
United States priorities are being achieved. I would cite among 
those the rule of law, religious freedom, human rights issues, 
and the role of women. Now, this is a difficult task for the 
American Ambassador. My question to you is, How much leverage 
do you have, or do you feel you have, in bringing about both 
support for the policies of ending the militia and, more 
positively, achieving the goals of an Iraqi democracy that 
embraces some of the objectives that I've mentioned?
    Mr. Khalilzad. Thank you, Mr. Chairman. Of course, the 
objective is an Iraq that is successful, and Iraq cannot be 
successful if militias and insurgents are allowed to operate, 
challenging the rule of law and the government authority. A 
successful country is one in which there is a monopoly and use 
of significant force in the hands of the government, in the 
hands of the state and in Iraq, what we have is with the 
liberation of Iraq that the existing institutions of the state 
were destroyed. So, new institutions are being built and we are 
in a transition in that process. We have state institutions 
being built: The army and the police. At the same time, power 
is diffused, military equipment has fallen into the hands of 
militias and insurgent groups. Because of the increased 
sectarianism, Mr. Chairman, the militias have become, more and 
more, forces that protect, or seem to protect, the Shia 
population in the sectarian conflict and respond to terrorist 
efforts to exasperate that faultline and the insurgent forces 
have become more--increasingly as protecting or presenting 
Sunni Arab interests. This unity government provides the 
opportunity for credible state institutions to be built and at 
the same time, for both these nonstate security forces that 
have emerged because of the difficult transition that I had 
referred to, that Iraq has been through, to build them down. 
This will be difficult, getting people who carry weapons to 
give up those weapons is not easy. It will require political 
agreement by the leaders of the different communities to that 
objective and then a plan of implementation that will require 
that some people as individuals be integrated into the security 
forces--provided they meet the criteria--while others will be 
reintegrated into society and be trained for jobs that are in 
demand in this new Iraqi economy. That will take time and the 
resources--there will be a requirement of resources for that 
reintegration, besides the political will of the Iraqi leaders 
and part of those resources, I hope, will come though this 
compact process that I mentioned in my statement and you 
mentioned, Mr. Chairman.
    So, this is going to be a very important issue for the 
success of Iraq and we will work with the Iraqi Government. I 
have to tell you, first of all, I can assure you that the 
people you have in the mission there work closely together. We 
see ourselves as a single team, good relations with General 
Casey and others involved. And at the same time, I can assure 
you that we have very good relations, good working relationship 
with the Prime Minister in the new government. This is a 
significant, positive development. I will have the opportunity 
to engage and to affect things in ways that take our interests 
into account.
    The Chairman. Mr. Ambassador, do you have a gut feeling, as 
someone who is as close an observer of anyone I can think of on 
the scene, that a predominant majority of Iraqis, quite apart 
from this governmental group, really want to be Iraqis? Is 
there a sense of being Iraqi among them that gives us some hope 
that those who are attempting to disrupt that process as Sunnis 
or Shiites or militias or what have you, finally will be 
subordinated? And absent that, then are those who predict civil 
war, or separation of the groups in the country, likely to have 
the last date? What is your gut feeling as to whether there is 
this sense of wanting to be Iraqi?
    Mr. Khalilzad. We talked in the previous question, Mr. 
Chairman, about state-building issues. Here you are raising a 
fundamental issue with regard to nation-building. Iraq is a 
nation but it is really a new nation, in the sense that for the 
first time in the history of Iraq, perhaps, at least in the 
modern history of Iraq, you have the people of Iraq, the 
community leaders, engaging with each other about what does it 
mean to be an Iraqi and how do they relate to each other? In 
the earlier periods, external imperial powers ruled Iraq. 
Whether it was the Ottomans or subsequently, the Brits or an 
internal autocrat, they determined what it meant to be an 
Iraqi, without full participation of all communities of Iraq. 
And now, for the first time, all Iraqis are participating in 
the elections. They have sat across the table with each other, 
arguing about federalism, arguing about the nature of the 
state, what powers should be given to what institutions, rules 
and procedures for decisionmaking, programs and so on.
    So, I think state institutions are being built and a new 
Iraqi nation also is being born. These processes, as we know 
from the history of our own country and the history of other 
old lands in Europe, are not easy. I know that you stated, Mr. 
Chairman, that the American people are impatient--and they are 
entitled to be impatient. They want to see results. They want 
to know that we are heading in the right direction, that we 
know what we are doing and I certainly appreciate that. But at 
the same time, I urge that we be patient because the issues 
that the Iraqis are dealing with are difficult, complicated 
issues that will take time to resolve and that we need to be 
agile and adapt and adjust as they move forward. I believe that 
they are moving in the right direction, but there are also 
countervailing forces, both internal and regional, that will 
like this Iraq not to succeed.
    So, in a sense, the struggle for the future of the Middle 
East is being fought in Iraq--we must do everything we can 
prudently to make sure the outcome is good for Iraqis, good for 
the region, and certainly good for the American people.
    The Chairman. Thank you very much.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. As you've observed, 
Mr. Ambassador, there has not been much of a disagreement, if 
any at all, between me and the chairman on Iraq. I would just 
like to make two very brief, sort of opening comments, I guess. 
One is, I think the American people have been incredibly 
patient. It has been over 3 years. I can't think of another 
people who are in the world who would likely be as patient as 
our people have been. They have been, as you know better than 
anyone, we've expended well over 2,500 lives and thousands of 
injuries, billions and hundreds of billions of dollars. So I 
think their patience is--the reason I think their patience is 
running thin is that they are not sure there is a plan and 
staying the course. It's not political comment. That phrase 
doesn't look like, doesn't sound like to them that there is 
something new here that is going to happen.
    And the second generic point that I would make is that back 
in December, having an opportunity to talk with you after the 
election, I remember us having a conversation that although the 
election was democratic, was it sectarian? As you know, the 
results--you know them better than I--if I'm not mistaken, I 
think the conclusion, reached a month or so after, was roughly 
90-plus percent of the vote was a sectarian-cast vote. So, I 
must tell you, count me on the skeptic side about whether or 
not there is a real dialog beyond the leadership about being 
Iraqis. When I was--my most recent trip, like the last trip, 
there is increasing discussion that I hear and I'm told that 
takes place. I'm not speaking to that many Iraqis. As you know, 
we can't get out of the vehicles and go into the restaurants; 
we can't go into the shops, because of the situation relating 
to security. So I don't want to exaggerate on the base of my 
knowledge. But speaking to people I respect, including the 
people I most respect after you guys over there, are the press. 
Our press are there. I mean they are there. They are getting 
shot at and killed and as you do, I know. I've watched you in 
Afghanistan. The first people I go to speak to are the seasoned 
press people. And my impression is that there is a growing 
identification: I'm Sunni. I'm Shia, as opposed to I'm Iraqi. 
So count me as a skeptic on that, which leads me to this next 
point.
    You state in your statement that there is a need to get the 
country, essentially, facilities up and running, provide 
everything from water to hope, safety, a step outside the front 
door and not step into sewage in the street, et cetera. One of 
the things that impressed me negatively was how the void of 
capacity--not will, not will. I think the Iraqi people have 
will. I think they are desirous of changing their circumstance 
and, obviously, they risk and lose their lives in an attempt to 
do that. But I'm not sure of the extent of the capacity because 
of four or five decades of them having been given no authority, 
really. I'll give you one example. I can't remember what the 
bug literally is that ruins the date--that can ruin the date 
trees but there is some virus equivalent to the boll weevil and 
cotton and speaking to one of our senior officials who are 
saying they went to the Department of Agriculture and said, you 
know, you haven't sprayed these date trees in 4 years or 3 
years or whatever. They have to be sprayed because this is both 
a national symbol and a future economic benefit and they're 
told, well no, the Iraqis have to work this out. Well, the 
Iraqis didn't know how to work it out. I was told they didn't 
know how to plan, they didn't know how to acquire the aircraft 
or helicopters to do it and when they did it, they didn't know 
how to follow onto it and finally, and maybe this particular 
military guy is wrong, said finally, we went ahead and sprayed 
the trees.
    Underline the notion that something equivalent to what we 
have done with our military. We didn't say, let the Iraqis 
build their military, we brought in our single best military 
trainers, the best military trainers in the world who have 
risked their lives to actually go out and train their military. 
So I ask your folks, what is the plan to do the equivalent of 
that in training the Department of Agriculture how to get this 
massive capability up and running? What is the plan to get the 
Department of Justice actually functioning? For example, after 
Kosovo--you know, we went into Kosovo, as you know. A matter of 
fact, my son was one of the people from the Justice Department 
who went over there to literally teach them how to set up a 
criminal justice system with trained judges, et cetera and we 
made a significant investment. A long prelude to a short 
question. I ask that of your staff and they said, you know, 
we've changed from the Bremer model, which is we go in and just 
run the agency, the Ministry of Agriculture, and we have to let 
the Iraqis do it but we have to be more deft about doing it. I 
said, well what's the plan? Is there any place where you set 
priorities? Say look, if I were running the Department of 
Agriculture, these are the first five things you have to do to 
get it up and running, et cetera. And they said that they had, 
for the key ministry, clear tactics, targets, and benchmarks. I 
asked them--and this is mainly to get this in the record, Mr. 
Chairman, I asked them, would you provide to the committee 
those actual documents that you have, which lays out the 
tactics, targets and benchmarks for each of those civilian 
agencies. So my question is, Would you speak generally to that 
right now and would you be willing, Mr. Ambassador, to provide 
to the chairman and the committee, what specifically--not 
generically--specifically for each of those civilian agencies, 
what the plan is? That is my question and my time is up.
    Mr. Khalilzad. Mr. Biden, with regard to your overall 
observation, as I said and I believe this very strongly, that 
Iraq is going through a transition. In transition, by 
definition, there are different elements: Elements of old; 
elements of new. It is good and bad and mixed. Our role, as I 
see it, is to strengthen what is good and to contain and weaken 
things that are bad. Depending on what you look at, you could 
come to one judgment or the other. There is certainly in the 
mix, sectarianism, this is a fact and the dominant issue right 
now. So if you look at that as an issue, certainly it is 
growing. But at the same time, if you look at the agreement--
and I have sat through hundreds if not more meetings with Iraqi 
leaders in the process of negotiating, both in regard to the 
Constitution and with regard to the government formation. I 
believe that there is--you see the tendency to want to build a 
new Iraq with the rights of the different communities.
    Senator Biden. I acknowledge that, Mr. Ambassador.
    Mr. Khalilzad. We see both.
    Senator Biden. That's what I said, there are two realities. 
That is one of them. But there is the other reality.
    Mr. Khalilzad. We hope that the reality that I speak of 
will become dominant and we can contain and reverse the other 
reality that also exists.
    With regard to the capacity of the ministries, it is very 
important. The model that we have embraced is to help in the 
short term; to help them do what needs to be done. But at the 
same time, build institutional capacity for self-reliance 
because if we do everything for them, there is the question of 
dependence that will develop in terms of the longer term. The 
American people, through you, the representatives, have been 
generous. We have this year about $150 million for capacity-
building; $60 million of that will be spent in terms of short-
term measures, from technical assistance, where they need 
computers and hardware and so forth, to hiring people that need 
to do the job when they can't do it, advising them in terms of 
planning, programming, budgeting, and the capability. We've 
done an overall assessment of the key ministries to see where 
the weaknesses are and how to deal with those weaknesses. But 
we do that through the Ministerial Advisory Team--MATs. Besides 
the immediate assistance to our MATs, and then the longer term 
program, which the bulk of our effort will go into--and we 
think that will take time to build institutional capacity to 
train Iraqis, building their civil service commission, building 
other institutions where their government officials will be 
trained. Due to the methods of Saddam Hussein and then the de-
Baathification and the current problems of Iraq, capacity is 
limited in the ministries. I agree with you. It varies from 
ministry to ministry but we are--we do have a plan and I'll be 
glad to----
    Senator Biden. If you have a plan--if you will indulge me. 
A plan for institution-building. If I can make a terrible 
analogy. There are a lot of new candidates for public office in 
the United States. They know exactly what they think. They are 
very bright. They know what they want to do.
    Mr. Khalilzad. Right, right.
    Senator Biden. But they have to bring somebody in to say, 
by the way, here's what you have to do.
    Mr. Khalilzad. Exactly.
    Senator Biden. You have to have a plan to go raise money. 
You have to have a plan to organize within these territories--
you have to have a plan--that's the institution-building.
    Mr. Khalilzad. Right.
    Senator Biden. What is--are we laying out that plan for 
them, not telling them what to do, how to build an institution?
    Mr. Khalilzad. We are. As I said, this is the 
responsibility of the Ministry Advisory Team to develop those 
plans. But at the same time, institution-building, where Iraqi 
civil servants could be preened so that they can become self-
reliant.
    Senator Biden. But you'll take on board to us.
    Mr. Khalilzad. I'll take on board your request to submit 
our plans.
    Senator Biden. Thank you.
    The Chairman. Thank you very much, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Mr. Ambassador, 
welcome. Thank you for coming. I want to add my appreciation to 
what has already been noted by the chairman and Senator Biden 
and their recognition of our Americans who are serving in Iraq, 
both uniformed and nonmilitary personnel for the kind of work 
that they are doing, the effort that they are putting forward. 
You noted, Mr. Ambassador, in your remarks as did Senator 
Biden, that we have been in Iraq now about 3\1/2\ years and on 
the scale of conflict commitment and all that is part of the 
efforts that we are making and you talk about strategic vision. 
That represents longer, I believe, than the Korean war. We are 
a couple of months away from surpassing the length of World War 
II. Now the world is more complicated today. I think we 
recognize that and we do not judge threats and response to 
threats and challenges based on past conflicts. I recognize 
that. But as you opened your remarks this morning, Mr. 
Ambassador, with referencing tactical patience, strategic 
optimism, I want to go into that in some detail with the time I 
have and I'm going to ask you the question but I want to ask 
another question first. What do you mean by strategic optimism? 
You noted that much of the future of the Middle East is 
revolving around and is centered in the conflict in Iraq. I 
think that is certainly a central part. But I would also say 
that the northern and southern borders of Israel and what is 
going on there will have something to do with the future of the 
Middle East, as well as the outcome in Iran. The more bogged 
down we become--we are now engaged in two land wars--the more 
options that we take away from our arsenal of diplomacy and 
resources. You know that. You are a professional. You are the 
best we have and I really mean that. You know that. I 
introduced you twice to this committee and I was very proud of 
that. That isn't the question. The American public, 
occasionally, I think needs to be reminded that there is a 
difference, not unlike in Vietnam, when we asked our young men 
to sacrifice and fight and die in Vietnam. They had nothing to 
do with the policy. So we can question policy and ask about 
policy and occasionally, hopefully, put forward a contribution 
on policy without undermining the effort of our troops and I 
think occasionally, we need to remind the American public of 
that. Not only is that our constitutional responsibility here 
but it is our overall responsibility in government.
    Now, you talk about--and I'll quote from your statement, 
``key regional countries as well as the international community 
have reassessed their perspectives on the future of Iraq, with 
more and more coming to the view that the new government will 
succeed and opting to increase their nonmilitary involvement in 
Iraq.'' And you mention it again in your statement. But isn't 
it true, though, that there has been very little new 
international assistance provided to Iraq in the last 6 months? 
If my numbers are correct and I got these from the State 
Department, that only $3.5 billion has been provided out of the 
$4.6 billion that has been pledged from the international 
community. As far as I know, it is still unclear whether the 
Arab League will host a conference on Iraq. Unless you have 
something new to talk about on that, this is a followup, as you 
know, from November 2005 in Cairo. As you know and has said it, 
as I have said it and we have had discussions about this, there 
will be no resolution in the Middle East without a regional 
understanding and a regional resolution. You have just noted 
that in Iraq and I completely agree. But I'm not encouraged, 
Mr. Ambassador, with the lack of participation and effort and 
commitment I see from the neighbors. I also am concerned 
about--I don't see any effort to bolster or increase in the 
military as well. The United States continues to carry the 
burden: The dying, the fighting, the financing. And that really 
kind of loops me back to your point about strategic optimism. 
Where is the strategic optimism when we talk about how does 
that translate into Iraqi governance? We have talked about 
magnificent progress and contributions that have been made and 
successes: The Constitution; a freely elected government. How 
does that translate into day-to-day governance, security, 
supporting their own country, the corruption problem, our own 
inspector general's report on this a couple of months ago, the 
Iraqi inspector general. I understand where you have to be, to 
a certain extent on this, but if you could answer some of those 
questions, because we need a clearer understanding of the 
specifics, of the measurements, Mr. Ambassador, of what you are 
talking about here.
    Thank you.
    Mr. Khalilzad. Thank you, Senator Hagel. I appreciate your 
statement about me. With regard to strategic optimism that I 
talked about, my judgment is that the participation of the 
Sunni Arabs in the political process--they've changed from 
opposing this change that took place in Iraq, to embracing it 
and wanting to work with it. It gives me strategic hope that 
the different communities, the three principle communities of 
Iraq: The Shia Arab, the Sunni Arab, and Kurds, are now working 
together to deal with the problems of state- and nation-
building that I referred to earlier. That was a necessary step. 
You couldn't get Iraq on the right trajectory if one of the 
three principle communities, as it was the case a year ago, 
opposed it. Now that has changed. It was necessary but it is 
not sufficient. A lot more has to happen and that's where I was 
referring to the tactical patience, working through the 
problems that exist, given this fundamental requirement, which 
has now been met. It required patience. Now, of course, the 
question of a timeline that you talked about, Senator Hagel, I 
believe that the issue, the challenge that we face in this part 
of the world, which is to encourage this region which has been 
dysfunctional for a long time, which is the source of many of 
the security problems, is more analogous in a timeline to 
dealing with the Soviet threat, in my view, although it is not 
identical. We're talking about a transformation that will take 
decades to achieve, not all by military means, clearly, in most 
cases. In this case, we do have a significant military means as 
part of it. But the challenge of the broader change that is 
needed in this region, solving regional problems such as the 
one that you talked about with regard to the Arab-Israel 
problem, talking about the evolution of Iran. It is a great 
people, a terrific civilization, right now, in a very difficult 
situation given the policies of the leadership there on some 
issues as well as some of the other challenges of this area. So 
this will take time and the outcome in Iraq will be very 
important in shaping where this region goes. God forbid, if we 
were to abandon this effort, the threat that will emanate from 
that possibility, from that scenario, would create, in my 
judgment, bigger problems than we face now. I believe that for 
good strategic reasons, as well as for moral reasons because we 
have had a role in bringing about these sets of circumstances 
in which Iraqis find themselves, that we can't abandon them. We 
need to help them stand on their own feet because it serves our 
strategic interests and we have a responsibility to see it 
through. But staying the course that Senator Biden was saying, 
in my view, is not doing everything exactly as you did before, 
adjusting as the circumstances warrant. I am not a believer in 
staying the course, do exactly what you did before although the 
circumstances would have changed.
    Now, with regard to the regional situation and the 
international situation, your specific questions, Senator 
Hagel, I believe and I travel a lot in the region. I recently 
went to see the King of Saudi Arabia, the leadership of UAE 
before the Prime Minister went there. The fact that the Sunni 
Arabs are in, because most of the leadership of the Arab world 
is Sunni Arab, the fact that the Sunni Arabs are in the 
strategic issue that I talked about and the reconciliation plan 
that the Prime Minister offered, reaching out to the 
insurgency, had a big and positive impact in terms of how Iraq 
is now perceived by the Arabs--and they are willing to help. 
They are willing to help with the reconciliation because some 
of the insurgent groups are Sunnis that are still outside the 
political process. These countries can influence them and they 
are willing to facilitate meetings and encourage these people 
to participate in the political process. Also internationally, 
I believe that in the discussions that we already have had on 
the compact, countries that opposed this project at the 
beginning are now saying they want to participate. Some of 
their companies, particularly in the energy sector, are already 
reengaging because Iraq, unlike Afghanistan, has huge potential 
economically and the countries are beginning to sort of see how 
they could benefit from that and participate. Therefore, are 
looking for ways to enhance their engagement. So that is what I 
would say about the strategic level as well with regard to my 
regional and international assessment.
    Senator Hagel. Mr. Chairman, may I just add one thing? My 
staff representative noted that I said $4.6 billion.
    Mr. Khalilzad. Right, that was $13.5----
    Senator Hagel. It is $14.6 billion that has been pledged, 
but only $3.5 billion that has been given, is my understanding 
and again, I received these numbers from the State Department.
    Mr. Khalilzad. That is correct.
    Senator Hagel. Which I don't think stands up very well in 
your efforts, all of our efforts, in trying to engage 
commitments and connect those to reality.
    Mr. Khalilzad. Right.
    Senator Hagel. From the international community, 
specifically the region. Thank you.
    Mr. Khalilzad. I accept that, Mr. Hagel, that the Arab 
world has not forgiven back the level that some of the other 
countries have. Some of the pledges that you are referring to 
were Arab pledges that were then in Madrid, have now been 
delivered on and that is where I believe a change is taking 
place because the previous government was perceived by them as 
being a Shia-Kurdish government in which Sunnis were not 
participating. This is where I see the opportunity with this 
unity government that could have--is likely to have, in my 
view, given my talks with some of them--a positive effect.
    Senator Hagel. Is the Arab League going to follow up with a 
host meeting from the Cairo meeting last year?
    Mr. Khalilzad. The Ambassador of the Arab League in Baghdad 
told me that they are committed to holding a conference, that 
they will have a preparatory conference in Cairo. The nature of 
the mission has changed because when they started the 
initiative, the Sunni Arabs were not in the political process 
so they wanted to play a role in facilitating that. Since that 
has happened, the question is what is going to be the focus of 
this conference? My judgment is that it is going to probably be 
in support of the reconciliation part in terms of what remains 
of those forces that are not in. That becomes a little harder 
because we are talking about some insurgents and who is who. It 
has become a little more difficult because of who you have to 
reach out to. So they are doing this preparatory conference but 
they are committed to moving forward and we are committed, I 
can assure you, to helping them. We support this initiative and 
we will work with them.
    Senator Hagel. Thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman. Let me begin by 
saying also how much I have personally enjoyed working with 
you, Ambassador, with your staff and I congratulate all of you. 
I thank them for their service and what they are putting up 
with over there. That is very difficult. Also, since you are 
the principal representative to the troops and everybody over 
there, we all continually express our gratitude for their 
sacrifice and service. You are very skilled. But I think you 
are regrettably undermined by a lack of adequate central focus 
within the administration on some of these choices. I mean, the 
fact is that 2\1/2\, 3 years ago, a number of us on this 
committee were loudly calling for this international 
conference. It is finally happening, too many lives later, too 
many limbs destroyed and lives destroyed later. I mean, it is a 
tragedy that that kind of international effort isn't happening 
more. Senator Hagel has just referred to the money not given by 
those countries pledged. That really goes to some of the 
fundamental challenges that you face now because many of those 
countries are Sunni and there is, I think you will agree, a 
reluctance playing out among them because there is only a 20-
percent Sunni population in Iran and that's what the insurgency 
is about. So is it fair to say that we are engaged in probably 
the most complicated and largest nation-building experiment in 
the history of this country with the exception of ourselves?
    Ambassador Khalilzad. First, Senator, with regard to your 
broader point, I have no doubt that we have made mistakes in 
how we have dealt with this issue and although I don't tend to 
look back but rather to work with what I have to move forward, 
but I believe that no matter what one's view was and what one 
thinks about the mistakes, now that we are where we are, we 
need to do what we can to make this----
    Senator Kerry. I understand that, Mr. Ambassador. The 
problem with the mistakes is that every time options have been 
put on the table and ignored, the situation gets more 
complicated. So the mistakes have to be taken into account in 
measuring what are our options now.
    Ambassador Khalilzad. Now, we have to know that you are 
right on how we got to where we are. I agree with that.
    Senator Kerry. But let me speak to that for a moment. Let 
me just get the answer to that. Is this the most significant 
nation-building effort we've ever engaged in, except for our 
own?
    Ambassador Khalilzad. I believe that this is a very 
difficult, complicated enterprise that we have taken on. It 
involves state-building, it involves nation-building, it 
involves fighting terrorism--because that is an element of 
fighting terrorists, the global network that has also made 
headway in Iraq, although I believe that part of it has 
weakened in the past 12 months, but it is a very, very 
important, complicated, difficult task that we have taken on. 
Yes; I agree with that.
    Senator Kerry. The presence of international terrorist 
enterprises is one of the reasons things are more complicated 
today in many ways, because the al-Qaeda presence, as you know, 
was not significant in the beginning but now is. I agree with 
you. I think that part of it has diminished. But let me come to 
the harder issues.
    The number of insurgent attacks have increased from 5 per 
day in May 2003 to 90 per day in May 2006. The incidents of 
sectarian violence have increased from 5 per month in May 2003 
to 250 per month in 2006. The number of Iraqis kidnapped has 
increased from 2 per day in May 2003 to 35 per day in May 2006. 
The number of civilian deaths has increased from 250 per month 
in 2003 to 1,500 per month in May 2006. So every indicator of 
violence and disorder is up. Now, on March 7 of this year, you 
said the potential was there for sectarian violence to become 
full-blown civil war. On Tuesday, you said, violence, 
sectarianism is now the main challenge to stability. Over 100 
Iraqis have died in sectarian violence this week, including 
more than 50 in Baghdad alone on Tuesday. Yesterday, Haider al-
Ibadi, a prominent Shiite legislator, said, ``certainly what is 
happening is the start of the civil war.'' Saleh al-Mutlak, a 
leading Sunni legislator, described the recent violence, ``as 
the start of the civil war.'' Do they know something that we 
don't know and that we are not willing to admit?
    Ambassador Khalilzad. With regard to your overall point 
about the levels of violence and the ratio between different 
elements within that violence, the date varies depending on 
what baseline one chooses. I think at times, subsequent to your 
baseline of 2003, there have been higher----
    Senator Kerry. Sure, but come to the heart of the question. 
The heart of the question is, Do these leaders, these members 
of the government who are defining a civil war, do they see 
something that we are unwilling to admit?
    Ambassador Khalilzad. With regard to the point that I was 
making, is that I believe that the attacks on the United States 
and the coalition part as a proportion of the level of 
violence, is down--has been down--and the sectarian violence 
has gone up, which gets us to the point of what you just said 
as to the bottom line. I believe that whether this is the 
beginning of a civil war or it is something that can be 
contained and reversed, only retrospectively we can judge.
    Senator Kerry. But we are not judging it retrospectively 
because General Casey announced in the papers today that he is 
considering bringing troops in, in order to deal with this, put 
them into Baghdad because there is increasing violence.
    Ambassador Khalilzad. Right. No, I'm just----
    Senator Kerry. What are our troops going to do to stop 
sectarian violence, when our generals have already declared 
that this cannot be resolved militarily, it has to be resolved 
politically?
    Ambassador Khalilzad. Let me say that whether we can judge 
that what is happening right now is the beginning of a full 
blown civil war, which was your question.
    Senator Kerry. Let's not fight about full-blown, small-
blown. It is a low-grade civil war.
    Ambassador Khalilzad. I just think that whether it is going 
to become a civil war or whatever the term, full-blown or not, 
will be something that we judge later on with regard to what 
happens subsequently. It will be, I think, a mistake to judge 
it, that this is the beginning of an overall civil war.
    Senator Kerry. Let's not quibble over the descriptive term.
    Ambassador Khalilzad. OK, all right.
    Senator Kerry. Let's agree that the violence is up, that 
there is increased sectarian violence.
    Ambassador Khalilzad. It is; I agree.
    Senator Kerry. What are our troops--the heart of the 
question is, If you would agree it can't be resolved 
militarily?
    Ambassador Khalilzad. Well, I agree. I say the following, 
Senator Kerry, which is that in order to deal with this 
problem, you need both political steps and security steps.
    Senator Kerry. I agree.
    Ambassador Khalilzad. You can't count on political 
measures----
    Senator Kerry. The policy of the administration has been 
that as the Iraqi troops are trained, we will stand down. As 
they stand up, we stand down.
    Ambassador Khalilzad. Right.
    Senator Kerry. We are told by our general that they will be 
fully trained by the end of this year.
    Ambassador Khalilzad. Right.
    Senator Kerry. But we're not standing down. There has been 
no standdown. There has been an increase in the violence.
    Ambassador Khalilzad. I believe the policy has to be, and I 
believe it is, that we want Iraq to succeed and for Iraq to 
stand on its own feet, to take care of its own security. But 
that will be--that depends on building Iraqi capacity but also 
on conditions. I believe that is why we have talked always 
about a condition-based framework and there are places that 
there could be adjustments downward inside Iraq, in terms of 
the presence. There are places, because of conditions and the 
help that the Iraqis need, that we may have to increase the 
level of our forces. But that will be calibrated and we will do 
constant recalibration, depending on the circumstances. But the 
target, the objective is an Iraq that can stand on its own feet 
as soon as possible.
    Senator Kerry. Let me just say this, Mr. Chairman. I know 
my time is up. It's hard to do this in 7 minutes and get 
through the kind of series of questions that are important to 
really understanding a point. So let me, if I could just 
summarize quickly.
    You used the word abandonment earlier and you used the word 
adjustment now for success. None of us who have articulated 
alternative policies have suggested it as an abandonment or 
believe it is. In fact, in the policy that the three of us 
sitting here proposed as an alternative in the Senate, we 
specifically allowed the President the discretion to leave a 
certain number of troops to deal with training, to fight al-
Qaeda, to protect American facilities, to have an over-the-
horizon capacity in order to encourage success. But there is a 
strong belief based on a lot of the statements of Sunni and 
Shia politicians themselves about how our presence attracts 
insurgency and increases violence. I think there are plans 
right now within the military to actually garrison troops, 
begin to move them out, to take a very different posture, which 
is, in effect, the policy we've prescribed. So I think using 
the word abandonment is the wrong way to frame what the real 
choice is. The question here is how do we get success? There 
are many people who believe that it is only by pushing the 
Iraqis with the same kind of deadline that required the 
elections, the transfer of authority, the Constitution, all of 
which they met--with your pressure, I may add--that's the only 
way to really affect the kind of transition necessary.
    Ambassador Khalilzad. While I am in complete agreement with 
you, Senator Kerry, that we need to keep the pressure on the 
Iraqis to take on more responsibility, to deliver, to do the 
right thing. I appreciate the sentiment behind some of the 
efforts and I don't dismiss the utility of those efforts. So to 
the extent to which efforts to encourage self-reliance is the 
motive that is welcome. But the extent to which signals 
abandonment, undermine confidence, I think that will be 
counterproductive to our goal.
    Senator Kerry. So you don't believe that General Casey in 
making a recommendation for a timetable for withdrawal has 
undermined the effort, do you?
    Ambassador Khalilzad. I don't believe that General Casey 
has recommended a timetable for withdrawal.
    Senator Kerry. He made a presentation to the Pentagon with 
respect to plans.
    Ambassador Khalilzad. You know the Pentagon and I have 
worked--you know, I used to head the planning and policy shop 
there. We have a lot of plans and then adjustments are made as 
the plans are reviewed. There has been no discussion yet with 
the Iraqi Government, on the way forward. When I get back, we 
will form a joint committee.
    Senator Kerry. But that is specifically to talk about 
withdrawal of troops.
    Ambassador Khalilzad. But the conditions today----
    Senator Kerry. I understand.
    Ambassador Khalilzad [continuing]. Today, for example, a 
whole province was turned over to the Iraqis, the province of 
al-Muthanna. They are taking the lead in terms of security for 
that province. So there will not be as much requirements as 
there was before. But in Baghdad, I believe now, we have a 
requirement for additional capability to bring down the level 
of violence. So there will be adjustments and we have to remain 
flexible with the goal, with the intent to bring the level of 
U.S. forces down and to get Iraqis to take on more and more 
responsibility.
    Senator Kerry. But I am confident you would agree that when 
the Iraqi National Security Advisor, Mr. al-Rubaie wrote in the 
Washington Post a few weeks ago, that there already is an 
unofficial roadmap for foreign troop reduction that will 
eventually lead to a total withdrawal of U.S. troops, he was 
not undermining his own government, was he?
    Ambassador Khalilzad. No. I believe that all Iraqis, or 
most Iraqis, let me say, would like the foreign troops to go 
out. We would like the troops to come out but if you ask 
Iraqis, do you want them out now or in 6 months, I think you 
will get--the overwhelming answer will be no.
    Senator Kerry. But our plans wouldn't do that. I just want 
it clear, our plan didn't do that.
    Ambassador Khalilzad. No; I'm not saying that.
    Senator Kerry. So we should take the word abandonment off 
the table. We should leave the word success on the table. 
Different words.
    Thank you.
    The Chairman. Well, thank you very much, Senator Kerry. Let 
me just note for the record that the Chair has allowed 
questioning that has gone beyond 7 minutes on both sides, and 
in two cases by doubling the 7 minutes, but it has been a good 
dialog. At the same time, in fairness to all Senators, to the 
extent that Senators can keep their remarks within the time, 
that would be very helpful. I'll call now upon Senator Chafee, 
and in fact, will turn over the chair to Senator Chafee because 
a vote has been declared. Some of us may vote and come back. 
The next Democratic Senator would then be the candidate for 
questions after you, sir.
    Senator Chafee [presiding]. Thank you very much, Mr. 
Chairman. Welcome, Ambassador. I think we all agree, as you 
have said, that we've embarked on a complex and difficult 
mission here and, in fact, that complex and difficult mission 
has cost over 2,500 American lives, many thousands of Iraqi 
lives, hundreds of billions of dollars, American dollars, and a 
whole new generation of veterans with very serious needs and of 
course, all the horrors that come with war, whether it is Abu 
Ghraib or Adetha. Where is this all taking us? In your last 
paragraph of your prepared statement, you say the success of 
Iraq is critical to the evolution of the Middle East and then 
you say with very proactive words that ``shaping its 
evolution'' is the defining challenge of our time. So what is 
the evolution of the Middle East and how do you reconcile it 
with the facts, the vision with the facts and the facts being 
warfare in Gaza, warfare now in southern Lebanon, the threat of 
nuclear weapons in Iran and a very, very difficult and complex 
situation in Iraq, what is the evolution?
    Ambassador Khalilzad. Sir, the very reasons that you 
mentioned, the nuclear issue in Iran, what Senator Hagel 
mentioned with regard to the Israel-Palestine issues, with 
regard to the rise of extremism that produces terror, the lack 
of adequate progress in terms of building stable, democratic 
societies, are the reasons for why I call and I think many 
others have called this, the future of this region at the 
present time, the principle challenge for our strategy, for our 
national interests, for the future of the world. As was the 
European balance of power in the earlier centuries, whether you 
go to the 19th century, 20th century, how the Europeans related 
to each other and there were, obviously, complexities at that 
time, that the balance of power for a while, kept the peace and 
it didn't work and we had to come in twice, with huge 
sacrifices on the part of the American people, to restore order 
in the world, to put the world on the right trajectory. And now 
Europe is heading in the right direction and the same thing 
happened in Asia, of course. But now, for reasons that you 
talked about and the reason of the September 11 attack, this 
region is the issue that we confront although there are other 
issues and I don't want to diminish their importance. This 
requires a very patient, long-term strategy that not only deals 
with immediate crises, and the kind that we are seeing in Gaza 
or the kind we are seeing with the nuclear issue with Iran, but 
deals with the longer term, the underlying challenges with 
regard to education, with regard to building a civil society, 
with regard to building the infrastructure of modern states and 
societies. It is going to take time. For a while, we ignored 
these issues because we had other priorities.
    Senator Chafee. Mr. Ambassador, can you be a little more 
specific on what the evolution, what the vision is for the 
Middle East?
    Ambassador Khalilzad. The vision? Well, the vision is what 
people everywhere want. What we are talking about in the Middle 
East is not that something different for them. People 
everywhere want to live in security. People everywhere want to 
have the ability to feed their kids, to----
    Senator Chafee. We're not doing very well. Mr. Ambassador, 
we're not doing very well, if that is----
    Ambassador Khalilzad [continuing]. But if we weren't doing 
very well, then we wouldn't have the----
    Senator Chafee. Security?
    Ambassador Khalilzad. If we were doing very well, then 
there wouldn't be a challenge any more. So this will be a 
success and a celebration. The reason we are talking the way we 
are is precisely because the region is not doing very well. 
What are the options, therefore? Is the option----
    Senator Chaffee. One option, in your words, was that this 
was similar to the Soviet threat. You said that this morning.
    Ambassador Khalilzad. In terms of defining an issue. Well, 
of course, it is a unique----
    Senator Chafee. What were the lessons of dealing with the 
Soviet threat? It was the cold war. It was containment, it was 
avoiding of conflict at every possible opportunity and wait out 
and allow new generations to come along.
    Ambassador Khalilzad. Sure, right.
    Senator Chafee. We threw that model out the window and 
we're suffering the consequences. If this is your vision, this 
is your initiative, defend it.
    Ambassador Khalilzad. I would say that when I referred to 
the European balance of power as the defining issue of an 
earlier era, the Soviet challenge being the defining challenge 
of much of the 20th century, that this is the most--I meant it 
in the sense of the most significant challenge that we face. 
Clearly, both in terms of what the challenge is and how you 
deal with it is different. I mean, we didn't apply the Soviet 
model of containment when we were dealing with the balance of 
power problems of Europe. The instruments were different, the 
means were different, the threat posed was different and here, 
the means will differ. Military was the instrument in 
Afghanistan because of the 9/11 attack, so we had to go get rid 
of the regime in Afghanistan. But in other places, the military 
isn't going to be the instrument. It will rely more on 
encouraging reform, political participation, buildup of civil 
society, reform of education systems and so on. So we need a 
grand strategy that has the different elements in it. I am not 
the person at this point with the responsibility to elaborate 
and detail, for each country of the region and the specific mix 
of things ought to be because I am, as you know, rather 
preoccupied with one country, Iraq, and that is quite 
sufficient to keep me preoccupied but I believe that when we 
think about Iraq, we need to know that there is this bigger 
context in which Iraq is playing out.
    Senator Chafee. Would you say that what is happening--I 
know this is, you're, as you just said, preoccupied with Iraq, 
but what is happening in Gaza and now in southern Lebanon, is 
that going according to plan?
    Ambassador Khalilzad. I do not believe that if you are 
talking about our plans, that what is going on there and Gaza 
and in southern Lebanon, would have been according to our plan; 
no. But we're not the only players. Others are also players. 
They have their plans. And the question is, Do we acquiesce to 
their plans or do we keep working on our plan for a positive 
vision for a positive future for the region? This is a 
multiplayer, complicated process, the struggle for the future 
of this region and nation, a region with lots of faultlines. It 
will not be easy, but yet, given the nature of the world that 
we are in, the trust that we faithfully cannot, but in my 
judgment, my recommendation for your consideration is to do 
what we can to increase the prospect for it to go in the right 
direction.
    Senator Chafee. In this vision, back to as you said, 
shaping the evolution of the Middle East--these are your 
words--do you honestly foresee a permanent presence, a military 
presence in the Middle East, an American military presence in 
the Middle East?
    Ambassador Khalilzad. Those are decisions that, of course, 
are way above my pay grade but certainly, I think the military 
is an element of our strategies. It has got to be, to deal with 
the problems. How we configure our military posture to deal 
with the problems of the region as an element in an overall 
strategy, I'll leave it to the Pentagon planners and to the 
Secretary of Defense.
    Senator Chafee. Seeing as I am holding the microphone, I'll 
continue until another Senator comes back and then go vote 
myself. I believe Tuesday you gave a speech to the Center for 
Strategic and International Studies. Is that right?
    Ambassador Khalilzad. Yes; I did.
    Senator Chafee. And in that speech, I think you've made 
some similar comments this morning, also, about Syria and Iran. 
In that speech to the CSIS, you said that if Iran persists in 
its unhelpful actions, the Iraqi Government, as well as the 
United States and other friends of Iraq, will need to consider 
necessary measures to deny Tehran the ability to undertake 
destabilizing policies. So back to the reshaping of the Middle 
East, what do you have in mind there? With that sentence?
    Ambassador Khalilzad. This is about reshaping Iran and 
policies in Iraq. I had a very specific issue in mind and that 
is, Senator, that Iran is pursing a two-track approach to Iraq. 
On the one hand, it has good state-to-state relations with the 
new Government of Iraq. But in addition, it is using its Quds 
forces, which is part of its Revolutionary Guards, as well as 
its intelligence and some surrogates in Iraq, to attack 
coalition forces to support militias. We discussed earlier the 
problem of militias for the success of Iraq. And what I was 
saying is that unless Iran abandons this second prong of its 
policy that is unhelpful to Iraq and to the coalition, and the 
Iraqi Government recognizes this, together with the Iraqi 
Government, we have to take steps to deal with that challenge. 
That was my intent, that we are cognizant of the second element 
and we are thinking, together with the Iraqi Government, what 
to do about it. We are considering options if Iran persists.
    Senator Chafee. You led off that answer by saying there are 
some positive elements of the relationship between Iran and the 
Government of Iraq.
    Ambassador Khalilzad. I agree with that. As I said, it is a 
two-track approach and I was referring to the second track.
    Senator Chafee. Are we working to--on the first track--to 
make that stronger?
    Ambassador Khalilzad. As you know, we did make an offer 
earlier on, to talk to the Iranians about the situation in Iraq 
and to have the opportunity to express our concerns with regard 
to the second track and to also express to them that we do not 
seek a hostile relationship between Iran and Iraq. They are 
neighbors. We want a good relationship between neighboring 
states in that region. Our goal has been an Iraq that set peace 
internally and in terms of the region, unlike Saddam, who went 
to war against Iran at a huge cost to both countries and Kuwait 
was a source of huge insecurity for the region. That is not the 
goal. Our goal is an Iraq that is both internally secure and 
has peaceful relations with its neighbors. For various reasons 
in terms of timing, those discussions did not take place. Now 
the focus is clearly in terms of a dialog with Iran on the 
nuclear issue and we'll see how things evolve from here 
forward. But I would not rule out that--and there are 
appropriate circumstances that we will go back to an engagement 
on the Iraqi situation.
    Senator Chafee. Thank you, Mr. Ambassador, for all your 
service.
    Ambassador Khalilzad. Thank you, sir.
    The Chairman [presiding]. Thank you very much, Senator 
Chafee.
    Senator Boxer.
    Senator Boxer. Thank you very much, Mr. Ambassador. Thank 
you for your service. As I said when I supported you when you 
came before this committee, I also thanked your family at that 
time and I continue to do that. My trip to Iraq was a harrowing 
experience and fortunately, there was no particular incident. 
So you are facing this uncertainty every minute when you are 
there and I just want to say thank you for your service.
    During your confirmation hearing, you expressed confidence 
that Irag's sectarian divisions could be overcome and you still 
exhibit that confidence. At your confirmation hearing, you 
said, ``there is a lot to build on to foster a focus on a 
united Iraq, an Iraq that brings the Iraqi people together 
rather than splits them apart based on ethnicity and 
sectarianism.'' Now, since you made that statement, incidents 
of sectarian violence have risen from 5 per month to 250 per 
month and you questioned the database. I'll put it in the 
record, Mr. Chairman, this is the Brookings Institution so this 
is solid data.
    The Chairman. It is placed in the record.
    [The Brookings Institution information submitted by Senator 
Boxer follows:]

                                          THE STATE OF IRAQ: AN UPDATE
----------------------------------------------------------------------------------------------------------------
                       Categories                           May 2003      May 2004      May 2005      May 2006
----------------------------------------------------------------------------------------------------------------
Iraq civilian deaths....................................          250         1,000         1,000         1,500
Multifatality bombings..................................            0             9            36            56
Iraqis kidnapped per day................................            2            10            25            35
Iraqis optimistic about future (percent)................           75            51            60            30
Iraqi police officers and soldiers in top two readiness             0             0        20,000        60,000
 tiers (out of four)....................................
U.S. troop fatalities...................................           37            80            77            68
Other foreign troop fatalities..........................            4             4             8            10
Iraqi Army and police fatalities........................           10            65           259           149
U.S./other coalition troops (in thousands)..............       150/23        138/24        138/23        132/20
Estimated number of insurgents..........................        3,000        15,000        16,000        20,000
Estimated number of foreign fighters....................          100           500         1,000         1,500
Daily attacks by insurgents.............................            5            53            70            90
Monthly incidents of sectarian violence.................            5            10            20           250
Monthly attacks on oil and gas assets...................            5             7            10             3
Oil production (millions of barrels per day; prewar:              0.3           1.9           2.1           2.1
 2.5)...................................................
Household fuel supplies (as percentage of estimated                10            73            93            83
 need; gasoline, kerosine, etc.)........................
Average electric power from official grid (in megawatts;          500         3,900         3,700         3,800
 prewar: 4,000).........................................
Telephone subscribers (in millions; prewar: 0.8)........          0.8           1.2           3.5           7.5
Real GDP per capita (in dollars; prewar: 900)...........          550         1,000         1,075         1,100
Eligible Iraqis voting freely in last election (percent)            0             0            58            77
Actionable intelligence tips from Iraqi civilians.......          100           300         1,700         4,400
----------------------------------------------------------------------------------------------------------------

    Senator Boxer. Just yesterday, a gunman abducted two dozen 
Shiites from a bus station northeast of Baghdad, took them to a 
nearby village and killed most of them. According to the French 
press, they were blindfolded and shot with their hands tied 
behind them. This latest tragedy comes just days after masked 
Shiite militiamen stormed through Baghdad, killing more than 40 
Sunnis.
    Now last month, a cable was sent from your Embassy in 
Baghdad--it had your name on it, doesn't mean you wrote it--it 
had your name on it and it was printed in the American press. 
It is titled, ``Snapshots From the Office, Public Affairs Staff 
Show Strains of Social Discord.'' This cable describes how life 
has deteriorated for Iraqi nationals who work for you at the 
Embassy. I want to read just a few passages. ``An Arab 
newspaper editor told us he is preparing an extensive survey of 
ethnic cleansing, which he said is taking place in almost every 
Iraqi province, as political parties and their militias are 
seemingly engaged in tit-for-tat reprisals all over Iraq.'' 
Continuing to quote this cable, ``two of our three female 
employees report stepped-up harassment beginning in mid-May. 
Some groups are pushing women to cover even their face, a step 
not taken in Iran, even at its most conservative.'' Continuing 
the cable, ``personal safety depends on good relations with the 
neighborhood governments who barricade streets and ward off 
outsiders. The central government is not relevant. Even local 
Leuchars have been displaced or coopted by militias. People no 
longer trust most neighbors.''
    So this is a very sickening report from the people who work 
for you. But even as the situation in Iraq worsens, the 
administration continually refuses to acknowledge the reality 
and let me give you an example, Mr. Ambassador, and I want to 
thank Senator Feingold for allowing me to precede him. I want 
to just show this very interesting juxtaposition of stories in 
yesterday's Post. Page A-10 contained the following 
descriptions of the views you expressed in a speech at the 
Center for Strategic and International Studies, just 2 days 
ago. You said, Sunnis generally--and you've said this today--
have undergone a tectonic shift in their views about the new 
government and are increasingly turning away from the 
insurgency. Many are now considering the pursuit of their goals 
by means other than violence. But three columns away, in a 
separate article on Iraq, you are directly refuted by a Sunni 
legislator. I mean, you're saying the Sunnis have this great 
shift. This is what the Sunni legislator says and I'm reading 
from the story: Saleh al-Mutlak, a leading Sunni legislator, 
said the sectarian rivalries are tearing apart the 7-week-old 
government of Prime Minister Nouri al-Maliki. ``This is a 
hopeless government. It has not done one good thing since it 
started and things are getting worse, not better,'' he said. 
``The Parliament cannot reach practical solutions because their 
minds are concerned only with their sect and not the interests 
of the nation. It looks like this government is going to 
collapse very soon.'' A Shiite legislator in the same article 
say, ``Certainly what is happening is the start of a civil 
war.''
    And so how do you square your far rosier view with these 
Iraqis? I want to say, who should the American people believe? 
Let me tell you what my constituents believe, for the most 
part. Not all, but a strong majority. They think we ought to 
have a timetable to get out. We won the war. Our soldiers won 
the war. Everything they were asked to do they did, and now it 
is up to the Iraqi people. That's what they think. I don't 
know, you come here with a rosy view and by the way, you're the 
best of them. You're the most direct of them. But you come here 
with a far rosier view than the Iraqis, than the legislators, 
who Senator Kerry quoted, and I'm quoting, and then let's look 
at what the Iraqi people think. Again, the Brookings 
Institution, only 30 percent of them are now optimistic, where 
a couple of years ago, 70 percent of them were optimistic.
    So how do you square your view and who should the people in 
America believe? They're smart. Should they believe this 
administration that went into this war without a plan and is 
struggling every day to figure out another mission or should 
they believe the Iraqi people? By the way, a vast majority say 
that things will get better if there is a timetable for 
America's withdrawal.
    Ambassador Khalilzad. Senator, I have tried to level with 
the American people and with the Congress. I call it as I see 
it. Sometimes it gets me in trouble with people I work for. But 
the situation is as I described. There could be, obviously, 
honorable differences of view, an honest difference of view in 
terms of the assessment. I don't rule that out. My judgment is, 
as I've said in CSIS speeches, I said today, that sectarianism 
has become the dominant problem. But at the same time, the fact 
of the unity government, the fact that Sunnis were not in the 
political process a year ago, did not vote in that election, 
now, they've voted in the last election, as proportional to 
their numbers or negotiated with the government, a program to 
which they agree, a key part of which was a reconciliation, 
which the government has taken. I believe to these successes 
that terrorists have adapted, Senator Boxer, by focusing more 
on sectarian conflict. Sectarian conflict is a faultline that 
is being exploited.
    Senator Boxer. Let me just stop you here, if I can.
    Ambassador Khalilzad. Let me say, let me say something on 
Mr. Mutlak. Mr. Mutlak is an opposition politician and we know 
about politics when you are in the opposition. He is not part 
of the government so I am not surprised by an opposition 
politician judging the government the way he did.
    Senator Boxer. OK, are you surprised by the fact that 87 
percent of the Iraqi people want to see us have a timeline? Are 
you surprised about that?
    Ambassador Khalilzad. I believe that the vast majority of 
the Iraqi people would like the American coalition forces to 
leave. But the vast majority of the Iraqi people also do not 
want the United States to leave immediately.
    Senator Boxer. OK, well, we're not talking about--we're 
talking about a timetable, which is a big issue around this 
place and 87 percent say things will get better if there is a 
timetable put out. Let me, because my time is up and I've 
talked to the chairman. I promised him. I will just ask one 
more quick question here because I've written two letters to 
Secretary Rumsfeld, asking for a plan in the event of a full 
scale civil war. Now, the Pentagon has not provided that plan 
and instead refers me to the so-called National Strategy for 
Victory in Iraq. On Tuesday, the GAO called the Bush 
administration's Iraq strategy inadequate and poorly planned. 
Now we've seen your cable, which I am sure you didn't write but 
had your name on it.
    Ambassador Khalilzad. No, no, I stand behind that cable.
    Senator Boxer. That's fine. The cable in which----
    Ambassador Khalilzad. I salute the courage of the Iraqis 
who work with us in the difficult circumstances. They come 
every day to the Embassy and work.
    Senator Boxer. I agree. They are very weary.
    Ambassador Khalilzad. That cable was a factual cable that I 
stand behind.
    Senator Boxer. Well, I so appreciate that because that 
cable tells a story that the American people aren't hearing 
about what it is really like. But in that cable, a few of your 
Iraqi staff members asked what provisions would be made for 
them if you had to evacuate. So your Iraqi staff clearly 
believes a full scale civil war is a real possibility. So what 
I want to ask you is this: Since you have said we are not going 
to stay where we're not wanted--you've said that--since 87 
percent of the people in Iraqi want to see a plan for 
withdrawal, I'll tell you--and since your own people are 
saying, what are we going to do if there is full-scale civil 
war? Since you said there is a tectonic shift in the views in 
sight of the Sunnis and the leading Sunni legislator says it is 
a hopeless situation, will you please, for me, send me 
something that explains what are our contingencies if there is 
a full-blown civil war, because Rumsfeld won't get it to me. 
They send me on a journey through some plan that the GAO says 
is inadequate. Will you let me know? You don't have to answer 
it now. What are our plans for a contingency if there is a 
full-blown civil war or however you want to phrase it, call it?
    Ambassador Khalilzad. We are doing everything we can with 
the Iraqi Government, Senator Boxer, to prevent a civil war, to 
bring sectarian violence down. I have talked about that.
    Senator Boxer. I'm not asking you that. I believe that so 
much. My question is, Will you send me what your contingency 
plans are? Your own staff is saying, what are the contingency 
plans and while we're at it, will you also give me your 
assurance that our military will not be handed over to the 
Iraqi Government to face any type of trial, because these are 
people who have already said they are going to give--they are 
considering amnesty for those who cut off the heads of our 
soldiers. I'm not turning a soldier over to them. I assume you 
agree with that.
    Ambassador Khalilzad. Sustained ethno-sectarian violence is 
the greatest threat to security and stability in Iraq. The 
violence in Iraq is terrible and regrettable, but it is not a 
civil war. The United States is doing all it can to support the 
Iraqi Government's initiatives to reduce the violence. This 
support is wide-ranging, from military support such as for the 
Iraqi-led and Coalition Forces-supported Baghdad Security Plan, 
to assistance for reconstruction and to improve essential 
services, to political encouragement of PM Maliki's national 
reconciliation efforts and the deepening of democracy and the 
rule of law.
    All Department of State overseas facilities maintain a 
post-specific emergency action plan detailing the planned 
responses to a wide range of emergency situations. An 
evacuation plan is a standard chapter within these emergency 
action plans. U.S. Embassy Baghdad maintains such an emergency 
action plan. Those aspects of the emergency action plan that 
deal with our contingency plans under various levels of 
violence are classified. As such, I am not in a position to 
discuss this in an open session. I can assure you, however that 
we are working hard to avoid a situation in which we would need 
to implement such a plan.
    Senator Boxer. I would like a more detailed answer. That's 
not a good enough answer for me. Could you give me an answer in 
writing on this, how you feel about turning our soldiers over--
--
    Ambassador Khalilzad. Under the existing framework, U.S. 
forces are subject to the exclusive jurisdiction of the United 
States, consistent with longstanding U.S. policy of maximizing 
U.S. jurisdiction over our forces abroad. As issues have 
arisen, we have worked with the Prime Minister to address his 
concerns and we will continue to do so. I know that General 
Casey is absolutely committed to his forces acting 
appropriately. Any allegations of unethical or criminal 
behavior will be investigated and any servicemembers found to 
have committed violations will be held accountable. If the 
Prime Minister wants to know about particular cases, we are 
certainly open to discussions on that.
    We're not going to turn our soldiers over to the Iraqis. I 
would like to give that answer very clearly.
    Senator Boxer. That is a good, clear answer and you're 
going to send me something about----
    Ambassador Khalilzad. I will talk about the amnesty issue 
but turning over--certainly we will not turn over American 
soldiers. We have an agreement with Iraq on this issue, under 
the U.N. resolution, under the rules put in place by CPA.
    Senator Boxer. But the Prime Minister wants to take another 
look at that agreement.
    Ambassador Khalilzad. Oh, we will. We are perfectly willing 
to discuss with the Prime Minister his concerns about the 
issue. If he believes that the American soldiers who violated 
the law, the Law of War, policy and rules of the United States, 
that they will go Scot free, he is wrong. They are prosecuted. 
The law is applied. If he wants to know what rule Iraqis can 
plan for in terms of getting informed about the different 
stages of particular cases, we certainly are open to a dialog 
and suggestions with him on that. But with regard to the 
turning over of the American soldiers to the Iraqis; no.
    Senator Boxer. OK.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. Thank you, Mr. 
Ambassador, for coming to testify in front of the committee. I 
know you are really busy and I hope that you know that all of 
us appreciate the incredibly hard work that you and the men and 
women who work with you are doing in Iraq. My colleagues have 
already discussed a range of important issues and I won't take 
a lot of time but I do want to talk about what has obviously 
become one of the largest questions we are facing in Iraq 
today: How long U.S. forces will remain there. Unfortunately, 
we can't get this administration to clarify for the American 
people about when our troops will come home and as Senator 
Boxer just alluded to, a new GAO study released this week 
points out that the President's National Strategy for Victory 
in Iraq, and I quote, ``neither fully addresses how U.S. goals 
and objectives will be integrated with those of the Iraqi 
Government and the international community, nor does it detail 
the Iraqi Government's anticipated contribution to its future 
security and reconstruction needs.''
    I think the American people have every reason to feel 
misled and angry and worried about the fact that we've lost 
over 2,500 brave service men and women and hundreds of billions 
of dollars and we don't have any real clarity about when we'll 
bring our troops home. Instead, we have a seemingly unlimited 
troop presence in Iraq without any real benchmarks or timeline 
for ending the military mission. Now, I think that hurts our 
national security and apparently, it isn't really contributing 
to stability in Iraq.
    So I want to focus on two specific issues today, the role 
of the United States military in Iraq now and in the future and 
our strategy for helping Iraq complete all of the tough 
political, economic, and security-related issues that it is 
currently undertaking. But again, I do want you to know that I 
appreciate and value the very hard work and the very difficult 
job you have.
    Reiterating what Senator Kerry was talking about, giving 
your best estimate, Mr. Ambassador, can you tell us when you 
believe, as our lead diplomat and Chief of Mission Iraq that a 
majority of U.S. troops will be withdrawn from Iraq?
    Ambassador Khalilzad. As I said before, Senator, when I get 
back, there will be a joint group formed between us and the 
Iraqis to discuss a way forward in terms of drawdown of U.S. 
forces that are dependent on conditions. We have an elected 
Iraqi Government that is a unity government. We want Iraq to 
succeed, to stand on its own feet. We do not want the country 
to disintegrate into a sectarian civil war that will bring 
other countries in. So, we want Iraq to stand on its feet as 
soon as possible, as I've said. So I don't think it is 
appropriate, before we have started discussions with the 
Iraqis, for me here, to talk about a timeline that you are 
asking for. Besides, the President has said that he looks to 
General Casey to develop those plans, based on discussions that 
myself and General Casey will have with the Iraqis and to 
present it to him. I think it would be premature for me at this 
point, to----
    Senator Feingold. Although General Casey is already 
developing such plans, as you admitted.
    Ambassador Khalilzad. I said there are different plans and 
these plans have not been discussed with the Iraqi Government.
    Senator Feingold. But he has developed and presented such 
plans, whether or not----
    Ambassador Khalilzad. Not to the Iraqi Government.
    Senator Feingold. But to the administration.
    Ambassador Khalilzad. Not to the--I think to some, perhaps, 
people in the Pentagon, but not to the----
    Senator Feingold. That is--the Assembly is part of the 
administration.
    Ambassador Khalilzad. I would describe what he did was a 
working document.
    Senator Feingold. Fair enough. But there are plans being 
discussed and developed, at least in some parts of our 
government.
    Ambassador Khalilzad. Right.
    Senator Feingold. Let me shift to General Dempsey's, who is 
the head of training Iraqi forces, recent comments. The New 
York Times quoted the general a few weeks ago as saying that 
the Iraqi Army would be, by the end of the year, ``fully 
capable of recruiting, vetting, inducting, training, forming 
the units, putting them in barracks, sending them out to the 
gate to perform their missions.'' You two have talked about the 
fact that by the end of this summer, the Iraqi Army battalions 
and brigades will be leading counterinsurgency operations with 
the coalition playing only mentoring and supporting roles. You 
also said that by the end of this year, they will be in the 
lead. Given this confidence in the Iraqi security forces and 
the President's standup and standdown strategy, what will the 
remaining United States forces in Iraq be doing there? And how 
long will it be before the administration articulates a clear 
vision for when our troops will come home from those functions, 
which presumably are going to be different from the functions 
they have now?
    Ambassador Khalilzad. I believe that with the completion of 
the numbers of the Iraqi Army, there will still be the 
challenge of helping Iraqis develop their own sustained manned 
and logistic capabilities, their own fire power, because 
currently, when they are in the lead, they still need U.S. 
support. So, I have said repeatedly that the current size, the 
current mission, the current composition of the forces are not 
ends in themselves for us. It is for the Iraqis to be able to 
do the job by themselves with minimal United States support. 
That is the goal.
    Senator Feingold. Well, I understand that but given the 
fact that these statements here, yours, as well as General 
Dempsey's, do suggest a----
    Ambassador Khalilzad. Yes; but if I could finish that 
answer because I was going to answer your question, which is 
with regard to the police, that is well behind compared to the 
army, in terms of doing the job. It will require adjustments in 
terms of vetting, in terms of reform of the ministry for the 
police to rise to the level in terms of effectiveness as the 
army. That will take time. And, of course, what happens with 
security also depends on the circumstances, what the other side 
is doing. Therefore, we will pull all of this together----
    Senator Feingold. Well, sure----
    Ambassador Khalilzad [continuing]. Senator, if I could 
finish.
    Senator Feingold. Well, my time is running out and I want 
to be able to say something else.
    Ambassador Khalilzad. We will pull all of this together in 
discussions with the Iraqi Government and come up with a way 
forward that will be presented to the President.
    Senator Feingold. Ambassador, I can understand that 
argument that when one of the major tasks is largely completed, 
which this seems to talk about, the Iraqi security forces, 
there are still issues with regard to the police. Nonetheless, 
the notion that there isn't a substantial opportunity to 
drawdown troops between now and the end of the year, if, in 
fact, this is true, doesn't make sense to me. To justify what 
130,000 troops still being there, just for that function, to 
me, doesn't quite add up with regard to the present standup and 
standdown strategy. If that major task is largely completed, we 
should be able to bring home a whole lot of the troops.
    Ambassador Khalilzad. I do not rule out the possibility 
that the circumstances could develop that would allow for some 
diminution, but it would be a mistake to talk about specific 
numbers at this time without, as I said, taking the conditions 
into account and discussions with the Iraqi Government into 
account.
    Senator Feingold. OK. You've suggested this week that you, 
``do believe that if one stays too long, we also add to the 
difficulties.'' Could you say a little bit about what you mean 
by that?
    Ambassador Khalilzad. Thank you for that, Senator. I think 
I mentioned before that there is an agreement in Iraq that the 
ultimate withdrawal of United States and coalition troops is 
desirable. But at the same time, there is a concern that if we 
leave too soon, that this could add to the problems of Iraq. 
Therefore, the challenge that we face is the right calibration 
of when is it too long, when is it too soon?
    Senator Feingold. I understand, but what is the problem if 
we stay too long? I want you to talk about--what are the 
downsides of staying too long?
    Ambassador Khalilzad. The downside of staying too long 
would be that we increase opposition to us that will give 
people a sense that we are seeking to occupy the country, and 
that we will run into difficulties. More difficulties not only 
politically in terms of our dealing with the government, but 
also with the people. There are clearly downsides to staying 
too long. But I want to urge you, the other Senators and the 
American people, that to leave too soon will be a strategic 
mistake and morally wrong.
    Senator Feingold. Mr. Chairman, my time is up but I've had 
good conversation with the Ambassador here and in Afghanistan 
and in Iraq, of all of these issues. I just want to 
respectfully submit--I think we've already reached the point 
where we have been there too long, that the difficulties that 
are associated with being there too long have outweighed the 
benefits in terms of the military, so I understand you need to 
calibrate it. I'm suggesting the calibration can be done now 
and that the weight is on the side of the difficulties and the 
downside. But I respect you and I look forward to working with 
you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. Mr. Ambassador, 
thank you for your service. Continuing the discussion, my 
questions will begin by being--how does an American citizen 
measure what you call tactical patience? Following Senator 
Feingold's comments, how do we measure tactical patience in 
Iraq, both in terms of what we might call nation-building and 
in terms of constitutional development?
    Earnest May, who is a professor at the Harvard School of 
Government, once wrote a book. I think it is called, ``Thinking 
in Time,'' where he urged those of us in policy positions to 
think, to look at history and see what lessons we learn from 
there.
    Senator Hagel mentioned earlier the length of World War II. 
He mentioned the length of the Korean war. But if we are 
accurately thinking in time about nation-building, would that 
be the correct measure? I mean, wouldn't we--we're past the 
idea of the war in Iraq. We're at a point where a nation is 
being built. You're calling it a new nation. The United States 
of America was once called the First New Nation. So what 
lessons do we have there?
    Some of the ones I think of in terms of nation-building, we 
may be approaching the time of World War II but we're not close 
to the time of our involvement after World War II in Japan. I 
mean, we've had U.S. troops there since 1945. The occupation of 
Japan ended 7 years after the war. We've had troops in Germany 
since 1945. West Germany wasn't set up until 4 years after the 
war, fully sovereign in 1955. In Kosovo, United States troops 
have been there now for 7 years. So that's one way to measure 
tactical patience for nation-building. In terms of 
constitutional development, Iraq, you say, is a new nation. If 
America was the first new nation, our Constitution came 11 
years after our Declaration of Independence. Giving women the 
right to vote came 120 years after our Constitution. We still--
we're denying equal opportunity to African-Americans 180 years 
after our Constitution. So as we Senators and we citizens sit 
here in the United States looking at Iraq in a period of 
nation-building, what is the measure of tactical patience?
    Ambassador Khalilzad. Thank you, Senator Alexander. I 
believe that the issues that we face are state-building, 
nation-building, and fighting terror. Those are the three 
things that we are doing in Iraq. With regard to nation-
building, the key issue, in my judgment, is constitutional 
agreement; we still have a set of issues left that have to be 
addressed. Second, there has to be the issue of what happens 
with the de-Baathification, because in the aftermath of the 
liberation of Iraq, the party was outlawed and a commission was 
established to look at people who were candidates for jobs or 
were in the government that could not hold positions. It has 
become a controversial issue that needs some closure on that. 
There are issues also, which gets into state- and nation-
building, which covers both--that is building new institutions 
of the state: The police who are truly credible and respected 
and we know from our own experience how difficult and 
complicated that can be, and the institution of the army. But 
the war of terror, of course, element is a separate track, 
related because they are seeking to undermine our state- and 
nation-building efforts. There, in my judgment, the process 
overall will take time to do, as you say. You can't do these 
important things in 2, 3 years. But it doesn't have to be--the 
mix of instruments that we apply to it will not be the same. I 
think, assuming if things move in the direction that we're 
working for, it will allow for a significant diminution in the 
role of the military, not a complete elimination of the role of 
the military, but allow for an increase relatively and other 
instruments of our policy, to cope with the situation, to 
encourage a successful state- and nation-building program and 
defeating terror in Iraq. So you're right that the war model, 
in terms of a timeline, is not the right model for what we are 
doing: A state/nation-building and a war of terror model needs 
to be applied in this case.
    Senator Alexander. My other question is, it's been 
suggested that maybe a solution is a federation, three states, 
Kurdistan, a Shia state, a Sunni state. If that were to happen, 
what would the consequences be?
    Ambassador Khalilzad. Well, the Constitution allows for 
Iraqis to organize themselves the way they see fit, but I think 
it would be a mistake for us, for the United States, to say and 
impose that on them. I think the process for imposing such an 
outcome on Iraq will cause huge difficulties, intensifing 
sectarian violence. But if democratically and voluntarily, they 
want to federalize the rest of Iraq in that way, that is 
available to them constitutionally. But that's not what they 
want at the present time, the Sunni Arabs. Generally, they want 
a stronger central government at this point, thinking the 
problem is not too strong a central government but too weak a 
central government. The assumption using the same argument 
saying: Well, since the center is preoccupied with issues of 
security, let's allow the providences and the regions to do 
more things for themselves. These are perfectly legitimate big 
issues that the Iraqis need to come to an agreement on, and 
they have agreed, thank goodness, for a path to deal with this, 
for resolving this issue in the agreement at the end of the 
drafting of the constitution. I think we ought to be supporting 
a constitutional process, rather than kind of suggesting that 
we divide the country along sectarian lines.
    Senator Alexander. Thank you, Mr. Ambassador. Thank you, 
Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. Mr. Ambassador, 
it's good to see you. What message do you want to send to 
Tehran about their involvement in Iraq?
    Ambassador Khalilzad. The message has two parts. Part one 
is that we favor good relations between Iraq and all its 
neighbors. The United States is not seeking to impose its 
differences with Iran on the Iraqis in terms of dealing with 
Iran. The second part of the message, however, is that Iranian 
efforts to undermine this new Iraq by sending arms, training 
militias and extremists, by sending money to them, to keep Iraq 
weak so that Iraq will not be able to play the traditional 
balancing role vis-a-vis Iran as a significant power in its own 
right, is unacceptable to the Iraqi Government and to us. We 
are looking for, and the Iraqi Government also is, for an 
adjustment in Iranian policy. And if that adjustment doesn't 
come as a--to Iraqis and those of us who are supporting Iraq 
will look at measures to be able to deal with that challenge, 
by the second element of the Iranian policy.
    Senator Nelson. Earlier today in this hearing, you 
suggested that some of this Iranian influence was with the 
direct approval of the Government of Iran. To what extent are 
Iranian groups, independent of the Iranian Government, 
operating in Iraq?
    Ambassador Khalilzad. There are things I can speak about 
with confidence, that I believe the Iranian Government does 
directly bear a responsibility for when its particular forces, 
such as the Quds Force, does things. There are things where, of 
course, information is contradictory and this is not an 
appropriate forum to get into that, but I think there are 
things that I am pretty confident that has direct Iranian 
Government involvement, that are disturbing.
    Senator Nelson. Because of that you consistently lobbied 
for limited talks between the United States and Tehran 
concerning Iraq and in March were granted the authority to 
undertake those talks. How did that come about, and what were 
the results?
    Ambassador Khalilzad. You know, Senator, prior to my 
assignment in Baghdad, I was the U.S. Ambassador to Kabul, to 
Afghanistan. I had been involved in the process in Bonn, to set 
up the Afghanistan Government. At that time, I had been given 
the authority to engage the Iranians on the issue of 
Afghanistan. When I moved to Baghdad, I asked for similar 
authority in Iraq and the President granted me that authority. 
Based on that, we talked about the possibility of some meetings 
with them. Because of various reasons, those meetings have not 
taken place yet and now the focus is clearly on the nuclear 
issue. I think at an appropriate time, if it is warranted, we 
would be, of course, willing to engage them on our concerns on 
the issues related to Iraq.
    Senator Nelson. To what extent do you think that Iran may 
now be exacting revenge on Iraq for the Iran-Iraq war?
    Ambassador Khalilzad. I believe that there is a desire on 
the part of the Iranians that is motivated by two things. One 
is the war that you talked about, to make sure Iraq doesn't 
become a power that can pose that sort of a challenge to Iran. 
But at the same time, I think what Iran is doing is motivated 
by ambition, which Iran is seeking and it believes that it is 
its natural right to be the preeminent power in that region. It 
sees itself as a power on the rise and, therefore, wants Iraq 
not to reemerge as a balancer, as a strong country in its own 
right and it also fears the rise of a kind of an independent 
Shia center of gravity, if you like, in Iraq--and Iraq is an 
older Shia community than Iran. So, yes; I think there is a 
history of the war that forms their views, their policies but 
also ambition is as well.
    Senator Nelson. I want to keep the name of Captain Scott 
Speicher in the front and center of your mind as we continue to 
look for some evidence that will help that family bring long 
overdue closure to this tragedy. Finally, as you know, the 
United States Senate approved, with approximately 70 votes, a 
resolution stating that there should be no amnesty granted to 
Iraqis who have killed Americans. As the Iraqi Government is 
considering a plan for reconciliation, I would like you to 
remember that, and I would appreciate any comments that you 
have regarding this.
    Ambassador Khalilzad. First of all, Senator, thank you for 
your concern with regard to Captain Speicher. I got your letter 
a while back and I have been cognizant of his case since I was 
in a panic during the gulf war. General Casey and his people 
are doing everything they can with regard to Captain Speicher. 
I have communicated your concern to him. Second, with regard to 
the amnesty issue, I think the vote, if I'm not mistaken, a 
reaction to some ideas or comments expressed by some Iraqi 
leaders that if someone has killed an American, he could 
receive amnesty but if has killed an Iraqi, he will not or he 
would not. While I believe that to end the war in Iraq, as all 
other wars, amnesty is a part of the package of things that 
need to be done. But I can assure that there will not be a 
discrimination against those who have sacrificed their lives to 
liberate Iraq and give Iraqis the opportunity that they have. I 
also recognize, however, that the biggest homage that could be 
paid to the brave American soldiers who sacrificed in Iraq 
would be for the cause that they fought for to be embraced by 
those who fought that cause. You can rest assured that will be 
firm and that there will be no discrimination against the 
American men and women who gave their lives and sacrificed for 
Iraq.
    Senator Nelson. These forums allow us to remind the 
executive branch of the sense of the Senate.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Obama.
    Senator Obama. Thank you, Mr. Chairman. Mr. Ambassador, it 
is good to see you again. I know that you've already been 
bombarded with questions and I apologize, I wasn't here for the 
whole hearing, so some of my questions may be repetitive.
    I really want to focus on the political situation and its 
connection to security, because I think the basic premise of 
the administration's strategy for the last several years and 
certainly when I spoke to you in Baghdad, was the central part 
of your strategy. Was that as the political situation clarifies 
and stabilizes, the insurgents will become more isolated? There 
will be trust built between the various religious sects and 
ethnic groups within Iraq and based on that political victory, 
the military needs will lessen.
    Now, I am one who has held off a--despite having the 
feeling that it was a mistake for us to go in and that the 
American people would not have signed up for the ambitious 
project that you've just outlined at this hearing, I've been 
wanting to say, now that we're in, let's see if we can make it 
work. So I was heartened when we had Prime Minister Maliki and 
the appointment of the Interior Minister and the Defense 
Minister. What I am concerned about is that it seems as if the 
steps that you had outlined, politically, have taken place and 
there has not been a corresponding lessoning of violence. In 
fact, there has been a continuing escalation of violence. I 
think anybody who heard the news a couple of days ago where 
militia members were randomly pulling people off the streets, 
checking their IDs and executing them, would not say that the 
security situation has improved. You've got Prime Minister 
Maliki declaring a state of emergency in Baghdad. Sectarian 
violence gets worse. You've got the Prime Minister visiting 
Basra, saying we're going to initiate a government crackdown. 
No improvement.
    I guess my question is two-fold. One, at what point do we 
actually see improvements on the security situation as a 
consequence of the political steps that have been taken or have 
we reached a point now where there is such a disconnect 
between--and such a lack of confidence in the central 
government, that no matter what the Prime Minister is doing or 
the Defense Minister is doing or Interior Minister is doing, 
that the violence has taken a life on its own. If that's the 
case, then what plan--I don't know what plan we're on now--Plan 
F or G. You know, what's the next plan?
    Ambassador Khalilzad. Senator, thank you for a very 
thoughtful question. I believe that the steps we have taken 
politically were necessary steps to deal with the violence 
issue. You couldn't deal with the violence issues successfully, 
couldn't place yourself strategically to deal with the violence 
without having the political progress that had to take place--
with the Sunni Arab community accepting to play its role in the 
political process. The question is, there is no doubt that--
well, let's just say it hasn't been sufficient, as you say 
correctly and others have adapted to this, particularly the 
terrorists, by focusing, extenuating the sectarian faultline 
that was there, to exploiting it. Since they have adjusted to 
our strategy, which was to bring people together, they are 
trying to push a button, work on an issue that can keep us from 
succeeding. I believe that I outlined in my statement, steps 
that need to be taken politically and securitywise, to deal 
with the sectarian violence issue to bring it under control. 
And I believe those are issues having to do with militias, with 
the insurgency and bringing those two elements that are 
principally responsible, besides terrorists, to this violence 
increasing end of control. The reform of the Ministry of 
Interior, which we talked about when you were there, I think we 
now have a Minister that we can work with to reform the 
Ministry. There are instances in which the militia gets support 
from elements in the Interior of Ministry when they are 
involved in sectarian violence, so we have to deal with those. 
Those are difficult issues of state- and nation-building that 
we've talked about earlier. But I believe that this government, 
has 6 months or so, to bring the sectarian violence under 
control and if it doesn't, then I think we would have a serious 
situation because now, politically, you have the forces, all 
the key forces in the government. So if the people come to view 
that this government cannot deal with it, then there will be a 
serious issue.
    Senator Obama. Can I focus on that point? I've always found 
you to be very open and thoughtful and all of us feel that 
you've made an enormous contribution with your presence there, 
so I hate to get you in trouble. But I'm going to try to pin 
you down on what you said. If this government has not 
significantly reduced sectarian violence in about 6 months, 
then we've got real problems. Right? If I'm hearing this 
correctly, what I'm hearing you say is that at that point, the 
Iraqi people will have the confidence and the central 
government will have eroded to the point where its not clear 
what we do now. I guess the question then becomes, what do we 
do then? Because you may be back here in 6 months and I'm going 
to feel bad when I read back this transcript and say, 6 months 
is up and the sectarian violence continues. So at that point, 
how do you respond to Senators Kerry or Feingold when they say, 
OK, look, at some point, we have to cut out losses here. This 
thing is not working and something entirely different is going 
to have to be tried that does not involve this sort of--I was a 
little worried when Senator Alexander mentioned us being in 
Japan for 45 years and Germany--as far as I know, we weren't 
spending $100 billion a year during that 50-year period. Why 
don't you respond to what I think was a fairly open-ended 
question? Take it where you will.
    Ambassador Khalilzad. What I would like to say, Senator, is 
that we have to work with the Iraqi Government in the course of 
the next 6 months to bring the sectarian violence under 
control, to encourage them to do the steps that are necessary, 
both on the political and on the security track, and we will 
need to help them on the security track to bring it under 
control. I do not believe that one can table in but I think to 
reverse the trajectory----
    Senator Obama. I'm saying there is measurable improvement 
that people can see.
    Ambassador Khalilzad. Exactly. I think this is a challenge 
for the government and I have explained it to the Prime 
Minister and I'm sure when he comes here, you and other leaders 
of our country will have an opportunity also to speak with him. 
But this is very important, in my view, that progress is made 
on this issue, and I think given there is a new government, 
that the permanent impression that it will make is very 
important to all the people. I think they are moving in the 
right direction. I'm encouraged by the steps that he has taken 
but more needs to be done and concretely, and we need to help 
them.
    The Chairman. Thank you very much, Senator Obama. Let the 
Chair mention that we're going to have a vote, as I understand 
it, at noon. The Ambassador needs to leave at about noon. We 
have two Senators still to be heard. So I'm going to call upon 
Senator Coleman, and if he could be helpful and give Senator 
Dodd a moment or two, that would be helpful.
    Senator Dodd. Mr. Chairman, permit me to inquire, is it 
appropriate for us to be able to--I'd like to ask unanimous 
consent that we can submit some questions we're not going to 
get to the Ambassador.
    The Chairman. That's an excellent suggestion. The Senators 
should do that and hopefully the Ambassador can respond 
properly.
    Senator Coleman.
    Senator Coleman. Mr. Ambassador, first, like every one of 
my colleagues, thank you for what you are doing. You are an 
extraordinary leader in extraordinarily difficult circumstances 
and your efforts and talents are greatly appreciated. So it is 
just very important to articulate that again. Talk a little bit 
about corruption. The stories about corruption regarding oil 
supplies at a massive, massive level and perhaps tying some of 
that in to fueling the insurgency. I was going to ask you the 
overall question about what is funding the insurgency. You can 
kind of have that in the back of your mind, but where are we at 
in terms of getting a handle on corruption? Is there a sense of 
the rule of law in Iraq? If we don't settle those things, then 
in the end, we're going to be faced with huge problems in 
addition to all the security issues.
    Ambassador Khalilzad. Corruption is a big problem. In part, 
it is because of the subsidy system that exists, which 
motivates and provides opportunities for people to make money 
exploiting the different market prices and what subsidized 
prices are. The government is moving to reduce subsidies with 
regard to fuel. I think they have taken some courageous 
decisions in that regard. I am very encouraged by that, moving 
toward a free market, market prices that will help. But also, 
it is important that the institutions monitoring and responding 
to corruption and government is strengthened. They have those 
institutions. They need to be strengthened. I mean, courage by 
the Prime Ministers, their stand on this is very strong, very 
firm, and I am encouraged by the Minister of Oil's stand with 
regard to this issue. Yesterday, the Prime Minister went to the 
assembly and described that he could report to the assembly 
names of people who were under investigation for charges of 
corruption. As to the financing of the insurgency, I think I 
can say that it is multiple sources. Some money comes from 
outside, in my view. I can't go into too much detail in this 
forum, but also from smuggling and from some of the hostage 
taking. Those are also sources of money for the insurgents.
    Senator Coleman. I was just told that we have a full and 
firm commitment that if you can cut off the economic support, 
that you have somewhat of a chance of slowing down the veracity 
of the effort. Since there is limited time, Mr. Chairman, I 
will yield the rest of my time back for my colleague from 
Connecticut.
    The Chairman. I appreciate the thoughtfulness, Senator.
    Senator Dodd.
    Senator Dodd. Well, I, too, appreciate the thoughtfulness. 
Thank you, Senator. I apologize to you, Mr. Chairman, and to 
you, Mr. Ambassador. The timing was not perfect this morning. I 
had an amendment they asked me to offer on the floor of the 
U.S. Senate dealing with homeland security issues so I 
apologize not being here at the outset to hear your remarks. 
And I apologize to the chairman and Senator Biden as well, for 
not being here earlier. Thank you for your presence and again, 
thank you for your dedication and your work. I want you to 
understand here, I think all of us probably feel that whatever 
criticisms we have are not focused on you, specifically. There 
is a huge task you have and I have great respect for the 
efforts you make.
    I'm going to focus on two quick questions, if I can. 
Picking up on some of the things I'm told that you raised 
earlier, one has to do with the issue of your suggestion. I 
think it was made in a speech. You may have made it as part of 
the response to a question here today, of increasing the U.S. 
force strength around Baghdad, from 40,000 to 55,000 troops. 
Let me make two points here if I can. One is about a year ago, 
Senator Reid of Rhode Island and myself were in Baghdad meeting 
with U.S. military commanders and one of the points that was 
made about a year ago was that there was a very good likelihood 
that the city of Baghdad could be policed effectively by Iraqi 
forces. We are now told--I think the numbers--my colleagues 
will correct me here or you will--are some 265,000 Iraqis are 
in uniform and trained to one degree or another.
    Let me pose the question to you by referring to a cable 
that was reported in the Washington Post, that you sent to the 
Secretary of State, which you point out here that we--
describing the difficulties of our employees at the U.S. 
Embassy. We cannot call employees in on weekends or holidays 
without blowing their cover. Likewise, they have been 
unavailable during multiple security closures imposed by the 
government since February. A Sunni Arab female employee tells 
us that her family pressures, the inability to share details of 
her employment, is very tough. Mounting criticism of the United 
States at home among her family members also makes her life 
difficult. She told us that in mid-June, that most of her 
family believed the United States, which is widely perceived as 
fully controlling the country, is punishing populations as 
Saddam did but with Sunnis and very poor Shiites now at the 
bottom of the list. My point and the question to you is, if, in 
fact, you are making, you are reporting this kind of a problem 
that exists, why in the world would we be suggesting at this 
juncture to increase the presence of U.S. soldiers there when 
our own military people a year ago felt that the Iraqi forces 
would be able to handle Baghdad and wouldn't it be wiser for 
them to take over that responsibility, rather than increasing 
the U.S. presence, if, in fact, this woman is correct in her 
perception?
    Ambassador Khalilzad. First answer, thank you for what you 
said about me. With regard to the increasing forces in Baghdad, 
I think it is very important that Baghdad, which is now the 
scene of the sectarian violence, the focal point of the 
struggle--sectarian struggle that terrorists are encouraging 
and exploiting. Together with Iraqis, the plan that was 
developed has not produced the results that we were 
anticipating. That plan is being adjusted. As to what specific 
measures should be taken in terms of additional U.S. forces 
there, I have not made any public statement or recommendations 
on that account. This is something that General Casey has a 
responsibility for, if there are adjustments to be made with 
regard to our force presence there.
    Senator Dodd. What is your view? You're correct. I 
misspoke. I said you and it is General Casey.
    Ambassador Khalilzad. Right.
    Senator Dodd. But do you disagree with General Casey about 
that?
    Ambassador Khalilzad. Well, I defer to General Casey, of 
course, on military matters because that is his area of 
responsibility.
    Senator Dodd. But this is a political question, too, 
because your cable indicates, ``we're having trouble with our 
own employees because of the perception of the U.S. controlling 
the country.''
    Ambassador Khalilzad. Right.
    Senator Dodd. What is your advice on that point?
    Ambassador Khalilzad. With regard to the cable, Senator, I 
stand behind that cable. It just shows that dedicated Iraqis 
take the risks that were described to come and work with us to 
build this new Iraq and we very much appreciate their service. 
I feel a responsibility toward them as I do toward the other 
employees from third countries or from the United States who 
work there for us and with us. But I believe with regard to the 
attitude toward the United States, people want security. They 
want to be able to send their kids out to school and come home, 
be able to go out on the street. There is this view in that 
region, in Iraq in particular, that if the United States wanted 
to end sectarian conflict, it could happen immediately. 
Therefore, they believe how could it be that we are there, in 
control, as you say, and this happens. They would like the 
sectarian violence to end and they have a misperception about 
that ability to control everything, an exaggerated view of our 
capacity. I think that clearly, as a matter of principle, 
politically, we prefer Iraqis to secure Iraq. That is the 
principle, the right thing to do and I support that. But if 
under some set of circumstances, in order to contain a 
situation or deal with a situation, they need our help. It is 
important for us and I defer to General Casey as to the 
specifics of what that help could be and that we provide that 
help.
    Senator Dodd. Let me jump in quickly, if I can, with a 
second question. I'd spend more time on that point with you but 
I hear your answer. That is, I gather in response to a question 
earlier about Iran and the earlier authorization you had to 
engage, if it was appropriate in some contact conversation with 
Iran, and I gather your answer was that it is timing, things 
have changed, the matters have moved to the nuclear weapons 
issue and the like and that you also said earlier that there 
was sort of a good news/bad news, that there was a very good 
relationship between the Iranian Government and the Government 
of Iraq but obviously there was continuing support for Shia 
militias that are coming out of Iran as well. I'm somewhat 
concerned. I want you to respond to this if you will. Why 
wouldn't it be possible, given the importance of the nuclear 
question and the ongoing relationship, have you been denied 
authorization--I mean, it seems to be opening up these doors 
that would open up conversations not limited to merely Iraq-
Iranian relationships but also this issue, which is paramount 
in our view, why wouldn't we allow you to pursue a dual track, 
if that would produce some results?
    Ambassador Khalilzad. Senator, at this point, of course as 
I said, the focus is on the nuclear issue but I would not rule 
out the possibility of engaging them with regard to the Iraq 
situation, under the right circumstances, if we judge that it 
would be productive in terms of what we seek in Iraq. But I 
think tactically, at this point, the focus of dealing with Iran 
is very much on the nuclear issue.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd. I 
announced a while back the Ambassador would have to leave at 
noon. Senator Sarbanes has arrived. Can you accommodate the 
Senator for--all right. We have a 7-minute limit and hopefully 
we can observe that, Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. Mr. 
Ambassador, I join my colleagues in welcoming you before the 
committee. When did you move from being Ambassador to 
Afghanistan to being our Ambassador to Iraq?
    Ambassador Khalilzad. June of last year, Senator. But I 
didn't assume my role until July.
    Senator Sarbanes. June 2005?
    Ambassador Khalilzad. June 2005; yes, Senator.
    Senator Sarbanes. Now, I'm sure you continue to follow the 
situation in Afghanistan, having spent so much time there and 
done some very skillful work. The situation there seems to be 
deteriorating on us. Would you agree with that?
    Ambassador Khalilzad. I am very concerned about the 
situation in Afghanistan, Senator.
    Senator Sarbanes. I'm tempted to attribute it to your 
departure but I don't want to overdo that point. So what do you 
attribute it to, this deteriorating situation in Afghanistan?
    Ambassador Khalilzad. I think clearly that there is a game. 
You'll have to forgive me, I've got my hat full in Iraq so the 
details are not on top of in great detail.
    Senator Sarbanes. Sometimes you get a better perspective 
when you are some distance removed.
    Ambassador Khalilzad. Right. But there is clearly increased 
attacks from the Taliban and it is very--whether that is as a 
result of new finances, new equipment, new people joining them, 
how the situation in terms of worsening, perhaps, between 
Afghanistan and Pakistan. I've seen from the media some 
increased contentiousness between those two countries--and 
certainly it is evident that there is an upsurge, an increase 
in Taliban activities against the government.
    Senator Sarbanes. Would you say that United States focus 
and attention and the commitment of resources to Afghanistan 
has been diverted away, beginning with our entry into Iraq and 
continuing over this time period? If you were the all-knowing 
decisionmaker, would you want to commit more focus and 
resources into Afghanistan?
    Ambassador Khalilzad. Success in Afghanistan is very 
important, Senator, in my view--9/11 was planned there and it 
is specifically important because of that. The Afghans, when I 
was there and I believe it continues to be the case, want to 
work with the United States, generally. I mean, of course, 
there are Taliban who have a different agenda, but generally, 
and President Karzai is a good partner. He is a good leader.
    Senator Sarbanes. Would you say that he has a greater 
legitimacy as the leader of his country, given the process by 
which he was chosen, than perhaps exists in Iraq, with respect 
to their leadership?
    Ambassador Khalilzad. Well, at present, Karzai clearly is 
the elected leader of Afghanistan, a democratic election, he 
campaigned across the country on an agenda. He had opponents 
and he won. The Government of Iraq is a legitimate government, 
a unity government. Everyone has been elected. I don't want to 
make comparisons but there is no question that President Karzai 
is elected. On your point about diversion to Iraq, I was in 
Afghanistan when--after Iraq and I have to tell you, I 
respectfully disagree with that because during the period I was 
there, while Iraq was going, our focus and assistance for 
Afghanistan also increased. I do know what has happened since I 
left but certainly, when I was there, when we managed to, 
thanks to your leadership----
    Senator Sarbanes. You were a very strong champion, actually 
for that position and I recall you coming here on a number of 
occasions to press that issue.
    Ambassador Khalilzad. Right. And you were kind enough, both 
the Senate and the House, to provide for additional resources 
for Afghanistan.
    Senator Sarbanes. I know those who were here at the dais 
with me took a major lead in----
    Ambassador Khalilzad. Absolutely.
    Senator Sarbanes. Senator Biden and Lugar and Hagel and 
Senator Dodd, I know, constantly pressed that issue. Let me go 
on because the time is limited.
    Ambassador Khalilzad. Yes, sir.
    Senator Sarbanes. I know you have to depart. I understand 
that the United States is now calling on the United Nations to 
help put together an international compact of donors, is that 
correct?
    Ambassador Khalilzad. The Iraqi Government is, along with 
the United Nations, cochairing an international conference on 
Iraq, in which Iraqis will commit themselves to certain goals 
and timelines in exchange for political and economic support 
from the international community.
    Senator Sarbanes. Now, I understand earlier----
    Ambassador Khalilzad. And we support that.
    Senator Sarbanes [continuing]. Yes. I apologize--I wasn't 
able to be here at the outset so if some of these questions are 
redundant, I apologize for that. But earlier in this hearing in 
response to Senator Hagel, you said that of the $14 billion 
that had originally been pledged for Iraq, only $4 billion of 
it has been received. Is that correct?
    Ambassador Khalilzad. I think that is largely correct; yes, 
Senator.
    Senator Sarbanes. Why do you think we've had so much 
trouble getting those contributions to come through?
    Ambassador Khalilzad. Part of it that I am aware of, that I 
deal with in the neighborhood of Iraq has been the reluctance 
of some of the Arab countries who pledged to deliver on, and 
they have been slow because of their concern about the 
government there. The Sunni Arabs and most of the Arab 
countries are Sunni Arabs--have taken a negative view of the 
previous government, which did not have elected Sunni members. 
Now that there is a unity government with Sunnis fully 
participating, in my judgment, there is a transition to a more 
positive attitude.
    Senator Sarbanes. Could I interject right there?
    Ambassador Khalilzad. Yes, sir.
    Senator Sarbanes. Is it your judgment that we are fully 
over the hump of having a unity government, that that has now 
been worked out in a lasting way or does it still remain a very 
shaky situation with respect to a unity government?
    Ambassador Khalilzad. Well, there is a unity government but 
it faces the challenge of sectarianism on the street. This is 
the best government, in a sense, to deal with it but at the 
same time, of course, I can understand that continuing 
sectarian violence can strain relations inside that government. 
So I suppose, an opportunity and a challenge, but there is the 
issue of integrating some of those other elements that are not 
in yet, insurgency, which was first necessary to bring the 
political leadership of the Sunnis and now the Prime Minister 
reaching out as part of the reconciliation, to the insurgency 
to be brought in and we support that. The Arab governments in 
the neighborhood can help and that is why they went to Saudi 
Arabia, Kuwait, and UAE to seek their help and they have 
offered to assist them.
    Senator Sarbanes. Speaking of the neighborhood--and I'll 
close with this--could you very quickly run through for us the 
roles that are being played by the neighboring countries with 
respect to the situation in Iraq? I understand earlier you 
spoke at considerable length on Iran so I'll leave that aside 
on the assumption that it has been covered. But you could go 
through the other countries and give us some sense of the roles 
they are playing?
    Ambassador Khalilzad. I believe Syria is also playing a 
mixed role with a lot of negative in it. Turkey, Jordan, 
Kuwait, Saudi Arabia--some of them have been playing a positive 
role. Others are beginning to engage positively, such as the 
Saudis, with a visit of the Prime Minister. I think they can do 
more and I would like to see them do more. I have urged them 
that on their concern about Iranian influence in Iraq, that the 
best way to deal with that is for them to engage this new Iraq, 
to engage, among others, the Shia population of Iraq, which 
during the time of Saddam, because they were in the opposition, 
they were based in Iran and Iran gained some influence over 
some of the groups. But now that Iraq has become independent, 
with the engagement from the Arab States, there can be a lesser 
need for them to rely exclusively on Iran and if they isolate 
this new Iraq, they will push it toward reliance on Iran and 
that would not be in their interests. I think there is an 
adjustment that is taking place there, in a positive direction 
and I regard that to be an opportunity for the new government.
    Senator Sarbanes. Do you expect these countries to be part 
of this effort at the United Nations, the compact to provide 
reconstruction assistance?
    Ambassador Khalilzad. Absolutely.
    Senator Sarbanes. How about Egypt? Would they be also a 
part?
    Ambassador Khalilzad. Certainly Egypt is an important Arab 
country that can help in many ways, although how much it can 
help financially will be--I think we are looking more to the 
Gulf States to do the heavy lifting on the financial front. 
Iraq is indebted to them substantially because during the Iran-
Iraq war, they assumed a lot of debt. That needs to be 
forgiven. The Arabs have done less than Western powers in terms 
of debt forgiveness. They have shown a willingness to do that 
and there is also the issue of assisting with reconstruction 
efforts and this compact is the opportunity and we anticipate 
that they will play a leading role.
    Senator Sarbanes. So what is the timetable on that compact?
    Ambassador Khalilzad. Well, as I said, this is an Iraqi 
project with the United Nations as a cochair. We think the 
first meeting will be of the preparatory committee on the 20th 
of July in Baghdad. Then there is the idea of a ministerial 
second step during the U.N. General Assembly meeting in New 
York and then a final conference before the end of the year.
    Senator Sarbanes. Thank you.
    The Chairman. Thank you very much, Senator Sarbanes. 
Ambassador, we thank you very much.
    Senator Biden. Mr. Chairman, may I take 60 seconds to make 
a closing comment? Thanks for being here, Mr. Ambassador. I 
come away from my recent trip and discussions with you as well, 
today, is that I believe there is an inevidentability we're 
drawing down American forces, regardless of what happens on the 
ground. I think it is going to start as early as September. I 
think that because of all the reasons you've stated about the 
Iraqis as well as us. I think the only question left is, what 
are we going to leave in the wake here and I hope I get a 
chance to talk to you more about Sunni buy-in in a larger way 
because it seems to me, that is one of the giant keys to this. 
But we're drawing down, we're drawing down no matter what 
happens.
    The Chairman. Do you think we'll leave the Ambassador in 
the wake?
    Senator Biden. Well, they may want him to be President or 
Prime Minister.
    The Chairman. Let me ask. Senator Hagel, do you have a 
final comment?
    Senator Hagel. Not anything other than to thank Ambassador 
Khalilzad and to also extend that thanks to all of the people 
you represent. We know, as you have heard here, how difficult 
this is. So thank you very much.
    Senator Dodd. That is an important point. I would hope, 
despite the issues raised in a table like this, there is no 
limit to the amount of respect we have for the people who serve 
in our embassies, the people in uniform in that country put 
their lives on the line every single day and one should never 
confuse questions being raised about policy and our deep 
commitment and respect for those who are out there trying to 
make things happen in a positive way. It is very important you 
bring that message back, Mr. Ambassador.
    Ambassador Khalilzad. Thank you, Senator Dodd, for that. I 
appreciate that and Senator Hagel, thank you very much.
    The Chairman. Ambassador, let me just conclude by saying we 
admire your personal wisdom and courage and we wish you well.
    Ambassador Khalilzad. Thank you, Mr. Chairman. It is an 
honor to have been with you.
    The Chairman. The meeting is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


  Responses of Ambassador Zalmay Khalilzad to Questions Submitted by 
                         Senator Richard Lugar

    Question. As part of his 24-point National Reconciliation Plan, PM 
Maliki has prioritized disarming the militias. They were also outlawed 
by the Constitution and opposed by U.S. policy prior to that. What will 
the key be to making this a reality this time? Will the United States 
have a role?
    Do you continue to have sufficient leverage in ensuring U.S. 
priorities are achieved and we don't allow the Iraqis to lose sight of 
rule of law, religious freedom, and human rights issues?
    What if the reconciliation plan falls through? What and who is 
doing the planning for the worst case outcomes?

    Answer. The U.S. Government is committed to working closely with 
the Government of Iraq (GOI) in developing a disarmament, 
demobilization, and reintegration (DDR) program as the vehicle to bring 
militias back into civil society. International/regional neighbor 
action is also critical in stemming material support for militias. The 
mechanics of the DDR plan require the GOI establish a plan that 
reintegrates these former armed group members under the Iraqi National 
Reconciliation and Dialogue project.
    A viable reintegration plan will require political, economic, and 
educational reforms designed to help members of these groups transition 
back into society. This plan will address jobs, integration into Iraqi 
military and police forces, and influencing those both inside and 
outside of Iraq who are supporting the militias.
    The Civilian Police Assistance Training Team (CPATT) works closely 
with the Ministry of the Interior to eliminate human rights abuses. To 
date, the Ministry has taken a number of steps to curb corruption and 
human rights violations. The MOI relieved 3 brigade commanders whose 
units were receiving frequent abuse reports, allocated $4 million to 
renovate current MOI detention facilities to U.N.-international 
standards, conducts human rights training during police training, and 
directed the formation of an MOI Center for Ethic, Integrity and 
Leadership.
    The United States remains engaged with Iraqi political, religious, 
and civil society leaders to assist in the transition from government 
formation to governing. While there are still many challenges that lie 
ahead to address the pressing needs of the Iraqi people, PM Maliki 
remains focused on a long-term strategy to ensure success of the Iraqi 
Government.

    Question. What are the objectives of the International Compact that 
the administration hopes to put into place? What will it encompass? 
Will the compact involve a wider involvement than the Council of 
Ministers? What are we doing to ensure its legitimacy?

    Answer. The International Compact with Iraq is an Iraqi initiative 
supported by the United Nations and the World Bank. The objectives of 
the compact are for Iraq to commit to reforming its political economy 
so that will become self-sustaining over the next 5 years. In return, 
Iraq's international partners (countries and international 
organizations) will commit to providing the assistance needed until 
Iraq is capable of meeting its goals with its own resources. While the 
content of the compact will be mainly economic, dealing with such vital 
sectors as oil, electricity, and agriculture, and such important topics 
as subsidy reform, social safety nets, and fighting corruption, the 
document will also point to the importance of Iraq continuing to make 
gains with security and its political institutions.
    The Government of Iraq, the United Nations, and the World Bank are 
organizing the work effort for the compact so as to directly engage key 
Iraqi ministries into the process. Iraq's provincial governments will 
also be involved in the process of formulating the compact. We expect 
that the resulting document will receive the endorsement of Iraq's 
Council of Ministers.
    Legitimacy will also derive from the endorsements the compact 
receives from the international community, in particular Iraq's Gulf 
Arab neighbors and their official financial institutions.
    We are encouraging the Iraqis to view the compact as a framework 
for focusing their efforts for engaging international actors and 
organizations--to begin on economic matters.

    Question. Beyond the compact, are you involved in increasing the 
contributions of international actors and organizations, or are you 
encouraging the Iraqi ministers to lead this effort?

    Answer. In every appropriate venue, we continue to urge 
international support for Iraq politically, economically, and in the 
security area by upgrading diplomatic relations, supporting capacity-
building programs, concluding bilateral debt forgiveness agreements, 
disbursing existing pledges, seeking new donor support and seeking 
support for security and stability.
    In coordination with the Iraqi Government, our international 
engagement strategy includes consultations by U.S. Government 
principals with regional and other countries, and outreach to 
international organizations, NGOs, and international financial 
institutions. I personally engage Iraq's neighbors such as with my 
recent visits to UAE and Saudi Arabia. Foreign ministerial and 
bilateral meetings, international summits, official visits, and many 
congressional delegations are also reinforcing our objective of 
increased international support for the new Iraqi Government. Most 
recently, the G-8 summit provided such a venue for engagement.

    Question. You have spoken about Syria and Iran. With fingers being 
pointed at Damascus and Tehran for destabilizing activities with 
respect to Iraq, and also for backing the intransigence of Hamas and 
Hezbollah with respect to Israel, what is the sense of Iraqis of their 
ability to deal effectively with these neighbors?

    Answer. Despite public statements signaling their interest in 
dialog and cooperation with Iraq, it is the position of the United 
States Government that Syria and Iran continue to support destabilizing 
activities with respect to Iraq. Syria continues to turn a blind eye 
toward insurgents' entry into Iraq and has claimed difficulty with 
controlling transit. Iran continues to undertake destructive activities 
in Iraq, and adversely affect the new national unity government's 
efforts to promote national reconciliation.
    The Iraqis understand that solutions will require coordinated and 
simultaneous actions across the political, economic, and security 
tracks. The Government of Iraq understands that it must lead these 
efforts, including carrying out an initiative focused on national 
reconciliation. For instance, the Iraqis are coordinating closely with 
the Arab League, calling for Iraqi parties and Arab States to support 
Iraq and respect the political will of the Iraqi people, bolstering any 
outside interference or influence.
    Senior Iraqi officials have made their views about Syrian and 
Iranian actions in Iraq known to the officials of those governments. 
While the details of those conversations are confidential, there is no 
doubt that Syrian and Iranian officials know the kinds of conduct that 
Iraqi Government officials deem objectionable.

    Question. Being aware of this committee's involvement in improving 
our government's ability to handle reconstruction and stabilization 
missions--especially from the civilian component--can you evaluate the 
operations of the few PRTs that have been established to date? Describe 
the challenges you are facing in staffing the civilian side robustly 
enough to be effective and the challenges they are facing? Can they 
move and operate effectively in the current security environment?

    Answer. Five PRTs are currently operational in Tamim (Kirkuk), 
Ninewa (Mosul), Babil (Hillah), Baghdad, and in Al Anbar (Ramadi). PRTs 
have always been a part of our strategic plan to coordinate 
reconstruction and capacity-building efforts. We initially fielded 
three U.S.-led ``proof of concept'' PRTs in Kirkuk, Mosul, and Hillah. 
Based on that experience, we have refined the PRT concept to shape 
logistics, security, and staffing to match specific needs in each 
province.
    PRT deployment is conditions-based. For U.S.-led PRTs, we use 
existing logistical and security resources at current U.S. Regional 
Embassy Offices (REOs) and Forward Operating Bases (FOBs). The security 
environment in each province is key factor in the timing of the PRT 
rollouts and the mix and composition of security resources for each 
PRT. In some cases, this may mean State and Multi-National Forces-Iraq 
(MNF-I) share security. In others, one or the other is in the lead. 
Joint analysis between the Embassy and MNF-I continues as we 
collaborate on PRT deployments.
    To date the Department of State has filled State-designated 
positions in Iraq, including the PRTs, with volunteers. In the summer 
2006 assignment cycle, State thus far has filled 99 percent of the open 
positions for Baghdad and more than 85 percent of the PRT positions. In 
recognition of our need for additional expertise in the field, 
Secretary Rice approved, in June, the augmentation of PRT staffing by 
an additional 45 positions, drawn from several civilian USG agencies. 
We have reached out to the Department of Agriculture and USAID to fill 
6 Agricultural Specialist and 11 Economic Reform and Private Sector 
Development positions, respectively. At the same time, State is 
identifying expertise from within State, the USG interagency community, 
and from qualified private citizens hired by the Iraq Reconstruction 
Management Office (IRMO), to fill the remaining 28 augmentee positions 
with political/foreign affairs, public affairs, and rule of law 
professionals. USAID and the Department of Justice already are 
providing development and rule of law expertise at currently 
operational PRTs.
    The PRTs are working closely with provincial governments to 
establish effective linkages with the central government, and to help 
local officials plan and prioritize provincial government direction and 
activities. This work includes assisting Iraqis in preparing budgets, 
identifying funding and staffing needs, and developing fiscal 
responsibility. Additionally, PRTs continue to provide assistance in 
coordinating civil construction, including advising provincial 
authorities on communication with their constituents and enhancing 
delivery of provincial and municipal services.

    Question. Assess the abilities of the Iraqi ministries to perform 
basic functions of government? Do we have sufficient civilian expertise 
to provide the advice and assistance they need to stand up ably, 
through ministerial assistance teams or what have you? The Iraqi 
economy has managed to grow despite all of the violence, yet corruption 
in the oil sector and elsewhere has been described as systemic. Is the 
Maliki government taking steps to step up enforcement and increase 
penalties for those who are caught?

    Answer. Increasing the capacity of Iraq's national-level ministries 
and local government bodies is a critical part of our strategy to 
support Iraq's transition to democracy and self-sufficiency. Tens of 
thousands of Iraqi officials, at great personal risk and sacrifice, are 
working to keep the Iraqi Government functioning and deliver essential 
services. Embassy Baghdad's National Capacity Development (NCD) program 
will assist the new government by addressing urgent needs (short-term 
track), and employing a longer term approach to foster indigenous 
capacity development (medium-term track).
    Embassy is finalizing a baseline assessment of capacity across the 
key ministries. Efforts are underway to attend to the highest priority 
identified needs, including programs to address cross-ministerial 
deficiencies as well as those targeted to specific ministry needs. 
Ministry Advisory Teams (MATs) are the implementation vehicle for the 
short-term approach and consist of Iraqis, U.S. Senior Consultants, 
USAID, donors, and other partners. The MATs will facilitate Iraqi 
ownership of ministry priorities as well as provide a vehicle for donor 
participation and coordination. To provide an example, the Electricity 
MAT is led by the Ministry's Head of Training and is soliciting 
proposals to address infrastructure management, legal and regulatory 
reforms, tariff reforms, and technical training. Embassy also plans to 
place a Bicultural-Bilingual Advisor (BBA) on each MAT, as well as 
provide BBAs to strengthen the overall operations of the Prime 
Minister's Office.
    The medium-term NCD approach is complementary to the short-term 
approach. Immediate support will be given to the Iraqi National 
Training Center to build government-level capacity in key ministries, 
followed by international assistance to strengthen the curriculum and 
capability of the national as well as regional training centers. This 
approach also employs civil service reform and Iraqi-led training 
programs to foster indigenous capacity development. Embassy is 
currently developing metrics to measure the progress of ministerial 
capacity development during our NCD effort. Full partnership and 
cooperation from the GOI will yield faster returns and facilitate Iraqi 
ownership.
    Coordination pivots on our senior consultant to each ministry to 
ensure that all of our operational and capacity development and 
training efforts are complementary and in many cases synergistic. NCD 
program efforts are also being coordinated with the work of Provincial 
Reconstruction Teams (PRTs) at the provincial and regional levels, and 
will also go hand in hand with anticorruption initiatives. The new 
government will provide a longer term, more stable political 
environment for capacity development and several of our international 
partners have expressed interest in assisting specific Iraqi 
ministries.
    While corruption remains a major obstacle to the reconstruction and 
stabilization of Iraq Prime Minister Maliki has made repeated 
statements reaffirming his commitment to fighting corruption in Iraq, 
most notably in his June 12, 2006, address to the Iraqi Parliament. The 
Iraqi Commission on Public Integrity, the Iraqi inspectors general, and 
the Central Criminal Court of Iraq continue to work together to combat 
corruption in the Iraqi ministries and Embassy Baghdad, through the 
IRRF and FY06 supplemental funds continue to assist in the efforts of 
these Iraqi anticorruption institutions.

    Question. U.S. reconstruction appropriated funding is waning, and 
little more has been requested. Describe what this is doing to our 
reconstruction priorities and goals.

    Answer. We have already disbursed $15 billion of the $20.9 billion 
in IRRF I and II, and expect to conclude most of our major 
infrastructure projects by the end of 2006. These programs were 
intended to jump-start the Iraqi economy, and facilitate Iraq's 
transition to self-sufficiency. These programs are already having an 
impact, for example, providing roughly one-third of Iraq's electricity 
generation capacity, stabilizing oil production, and improving delivery 
of water and access to sewage. As we wrap up these infrastructure 
programs, we are increasingly focusing on programs to build Iraqi 
capacity to manage their own affairs. Under the 2006 supplemental, we 
are beginning a program to increase the capacity of 10 key Iraqi 
ministries to carry out core functions, such as budgeting and personnel 
management. We also are implementing programs to improve Iraq's ability 
to operate and maintain USG-funded projects, protect critical energy 
infrastructure, and develop local government capacity. We have 
requested $771 million in FY 2007 to continue programs to build Iraqi 
self-sufficiency, as well as to support economic policy reforms and 
democracy programs.

    Question. In addition to the constitutional review process, the 
Constitution itself requires enacting legislation for dozens of 
provisions, many of them related to human rights and freedom 
guarantees. Is the Iraqi Parliament showing progress on these fronts, 
and are they being provided capable advisors as needed? What agency/
contractor/grantee has the lead for this?

    Answer. The Iraqi Parliament, also known as the Council of 
Representatives (CoR), has made no significant progress during its 
first month in drafting legislation related to human rights guarantees 
in accordance with articles in the Constitution. The CoR is currently 
out of session, but will resume work in September. The constitutional 
review process will likely begin in earnest in the fall.
    U.S. Embassy Baghdad--drawing on State Department, USAID, and other 
agency expertise--is providing legislative drafting assistance to the 
CoR. Embassy Baghdad also has been working closely with the United 
Nations and the United Kingdom, for instance on the Human Rights 
Commission legislation. The United States will remain engaged to assist 
the Iraqi Government in guaranteeing human rights and freedom for all 
Iraqi citizens.

    Question. Under the previous government, the Ministry of Interior 
(MOI) received very poor marks. Accusations continue to be levied at 
the active police force suggesting that loyalties are misplaced, the 
force is infiltrated or worse. Is Minister Boulani capable of turning 
the Ministry around so that it can gain the confidence of all Iraqi 
communities? Do you have any oversight purview of the MOI, or is that 
all handled by the Defense Department?
    Most Americans cannot fathom the level of violence that is being 
described daily in Iraq, much less what motivates people to perpetrate 
such acts? Can you explain what you see? Are average Iraqis frustrated 
because they do not have access to justice? Do they think the system or 
institutions will fail them? How has this changed since you have been 
there?

    Answer. Minister Jawad Al-Bolani faces the monumental task of 
overcoming corruption, human rights abuse, and sectarian influence to 
establish a transparent and accountable ministry capable of planning, 
organizing, managing, and sustaining Iraq's civil security forces and 
helping to establish the rule of law in Iraq. We believe that he can 
and must rise to the challenge. The U.S. Government is committed to 
helping him succeed.
    As the Chief of Mission, I coordinate with the Multinational Force-
Iraq (MNF-I) Commander to provide policy guidance and general direction 
to our efforts to build the capacity of the Ministry of the Interior. 
The Department of Defense, through CENTCOM and MNF-I, provides tactical 
guidance to ministerial advisors.
    Effective rule of law in Iraq requires four institutions: Effective 
laws, police to enforce them, courts to administer justice, and prisons 
to incarcerate offenders. The United States, its coalition partners, 
and international agencies are helping Iraq strengthen the rule of law 
by building a legal system that instills confidence in the Iraqi 
Government and ensures security for its citizens. Despite these 
efforts, progress in developing and implementing both the institutions 
and processes to foster the rule of law in Iraq have been limited. 
Although there have been some positive developments, delay in the GOI 
formation resulted in a loss of momentum and rule of law initiatives 
slowed.
    The MOI has made significant progress during the last 2 months. A 
major crime unit was disbanded for extensive involvement in corruption 
and terrorist activities. Recent investigations have identified a list 
of MOI personnel whom the De-Baathification Committee identified as 
being senior Baath Party members. The end result will likely be the 
firing of a large number of personnel based on Iraqi law that prohibits 
Baath Party members holding specific government positions. High profile 
prosecutions in connection with human rights abuses in MOI detention 
facilities will be a significant step toward increasing the credibility 
of the MOI as a national institution.

    Question. The Embassy has had problems filling positions with 
adequately qualified individuals willing to serve in such dangerous 
environment for periods long enough to be truly effective. As we are in 
another turnover period, 2 years after the Embassy opened, describe 
what you are doing to improve this situation.

    Answer. The Department of State has 137 authorized Foreign Service 
positions in Iraq of which 135 personnel have been identified for the 
summer 2006 cycle (99 percent fill rate); 41 of the above positions 
located in the Regional Embassy Offices/Provincial Reconstruction Teams 
(REOs/PRTs) or temporarily attached to military units as political 
advisors. The Iraq Reconstruction Management Office (IRMO) currently 
has 173 personnel in Iraq, including ministerial advisors (80 percent 
fill rate) and 32 candidates in the pipeline. To date, the Department's 
package of recruiting incentives has enabled us to staff nearly all our 
positions. Certain positions are filled by individuals who have the 
requisite professional skills but who are not at the requested grade or 
level; we continue to reach out personally to employees who meet all 
requisite qualifications to encourage them to serve in Iraq. The 
standard tour of duty in Iraq is for 1 year because of the extreme 
danger and hardship that our personnel endure. We are pleased that our 
employees have been so responsive to the challenges of serving in Iraq, 
we are proud to have an all-volunteer cadre there, and we continue to 
look at all options that will allow us to provide the best staff 
possible for Embassy Baghdad and constituent operations.
    In addition to the Department of State positions, we are pleased to 
report that of the 48 additional positions we requested of the 
interagency in March, 40 have been filled. Moreover, 8 agencies 
combined have offered up the names of 24 volunteers willing to serve 3-
month rotations in Iraq as part of our public affairs Global Outreach 
(GO) teams. The first GO team is on the ground and assisting U.S. and 
international journalists to facilitate coverage of reconstruction 
stories.
    The Department of State continues to host interagency meetings to 
encourage the continued staffing of these positions, to discuss 
recognizing and compensating all USG civilians adequately for their 
service in Iraq, and to review the legislative and regulatory 
impediments that complicate service of USG civilians in war zones such 
as Iraq. Thanks to the support of Senators Lugar, Warner, Biden, and 
others, many of those legislative impediments have been removed with 
the amendments offered with the passage of the FY 2006 Iraq 
supplemental, which President Bush signed into law on June 15.
                                 ______
                                 

  Responses of Ambassador Zalmay Khalilzad to Questions Submitted by 
                      Senator Joseph R. Biden, Jr.

    Question. Please provide the committee with an updated assessment 
of the governing capacity of the key Iraqi ministries. Please also 
provide the committee with the detailed plans on the strategies and 
benchmarks for building the capacity of each of these ministries. Which 
ministries have the best leadership and potential, and which ones do 
you worry about? What are the biggest obstacles you face in standing 
them up? How are international reconstruction efforts being coordinated 
to ensure that they assist in building Iraq's governing capacity?

    Answer. Embassy Baghdad's National Capacity Development (NCD) 
program is an integral component of transitioning U.S. support from 
reconstruction to building Iraq's capacity to govern effectively and 
deliver essential services. With the new Government of Iraq (GOI) in 
place, Embassy is finalizing a baseline assessment of ministerial 
capacity across the key ministries. The NCD program will address urgent 
needs during the first year of the new government (short-term track) as 
well as medium-term initiatives. Ministers were briefed on the NCD 
program shortly after new government formation, and Embassy has also 
obtained the support of the Prime Minister's Office and the Council of 
Ministers Secretariat to strengthen interministerial and provincial 
relations.
    Ministry Advisory Teams (MATs) are the implementation vehicle for 
the short-term NCD approach and consist of Iraqis, U.S. Senior 
Consultants, USAID, donors, and other partners. The MATs will 
facilitate Iraqi ownership of ministry priorities as well as provide a 
vehicle for donor participation and coordination. Efforts are underway 
to address the highest priority needs, including programs that address 
cross-ministerial deficiencies as well as efforts that are targeted to 
specific ministry needs.
    The medium-term approach is complementary to the short-term 
approach and immediate support will be given to the Iraqi National 
Training Center to build governate-level capacity in key ministries, 
followed by international assistance to strengthen the curriculum and 
capability of the national as well as regional training centers. This 
approach also employs civil service reform and Iraqi-led training 
programs to foster indigenous capacity development. Embassy is 
currently developing metrics to measure the progress of ministerial 
capacity development during our NCD effort. Full partnership and 
cooperation from the GOI will yield faster returns and facilitate Iraq 
ownership.
    Coordination pivots on our senior consultant to each ministry to 
ensure that all of our operational and capacity development and 
training efforts are complementary and in many cases synergistic. NCD 
program efforts are also being coordinated with the work of Provincial 
Reconstruction Teams (PRTs) at the provincial and regional levels, and 
will also go hand in hand with anticorruption initiatives.
    Having the new government in place for 4 years will facilitate the 
transition from U.S.-led training and mentoring to Iraqi-led capacity 
building with international donor and NGO assistance. The World Bank 
has also been working to expand Iraqi ministry capacity over the last 2 
years through two targeted programs. Other donors have also expressed 
interest in working with the Iraqi Government to address specific 
needs.

    Question. Please submit a progress report on the Provincial 
Reconstruction Teams (PRTs). How many teams are deployed? What is the 
schedule for deployment? What are the staffing levels? Why can't they 
be established faster? Do they have enough resources? What have been 
their key accomplishments? What lessons have been learned?

    Answer. Five PRTs are currently operational in Tamim (Kirkuk), 
Ninewa (Mosul), Babil (Hillah), Baghdad, and in Al Anbar (Ramadi). An 
additional two, Salah ad Din and Diyala, are completing staffing and 
will be inaugurated by the end of August. Also, one coalition PRT has 
been established, in Basrah, led by the United Kingdom. PRTs have 
always been a part of our strategic plan to coordinate reconstruction 
and capacity-building efforts. We initially fielded three U.S.-led 
``proof of concept'' PRTs in Kirkuk, Mosul, and Hillah. Based on that 
experience, we have refined the PRT concept to shape logistics, 
security, and staffing to match specific needs in other provinces.
    PRT deployment is conditions based. For U.S.-led PRTs, we use 
existing logistical and security resources at current U.S. Regional 
Embassy Offices (RE0s) and Forward Operating Bases (FOBs). The security 
environment in each province is a key factor in the timing of the PRT 
rollouts and the mix and composition of security resources for each 
PRT. In some cases, State will secure the movement of PRT members, 
while in other cases, Multi-National Forces-Iraq (MNF-I) will provide 
site security. Joint analysis between the Embassy and MNF-I continues 
as we collaborate on PRT deployments.
    Recruiting civilian staff has been a challenge; to date, the 
Department of State has filled State-designated positions in Iraq, 
including for the PRTs, with volunteers. Once accepted, the State 
``quick hire'' process requires 60-70 days to bring a candidate on. 
Thus far in the summer 2006 assignment cycle, State has filled more 
then 98 percent of the open positions for Baghdad and more than 85 
percent of the PRT positions. In recognition of our need for additional 
expertise in the field, Secretary Rice recently approved the 
augmentation of PRT staffing by an additional 45 positions. We have 
reached out to the Department of Agriculture to fill 6 Agricultural 
Specialist postions and to USAID to fill 11 Economic Reform and Private 
Sector Development positions. State is taking the lead in identifying 
expertise from within State, the USG interagency community, and from 
qualified private citizens hired by the Iraq Reconstruction Management 
Office (IRMO), to fill the remaining 28 augmentee positions with 
political/foreign affairs, public affairs and rule of law 
professionals. USAID and the Department of Justice are already 
providing development and rule of law expertise at currently 
operational PRTs.
    Resource support for PRTs varies somewhat depending on 
circumstances. Some PRTs were built within REOs and inherited REO 
assets, while other PRTs were built on the infrastructure of FOBs and 
need to be provided for separately. This is to be expected. However, 
overall, the PRTs are working effectively with provincial governments, 
establishing linkages between the central government and the provincial 
governments and helping local officials plan and prioritize provincial 
government direction and activities. This work includes assisting 
Iraqis in preparing budgets, identifying funding and staffing needs, 
and developing fiscal responsibility. Specifically, in Ninewa, PRT 
support helped in the formation of a provincial charter, crucial to 
defining the provincial government baseline. Additionally, PRTs 
continue to provide assistance in coordinating civil construction, 
including advising provincial authorities on communication with their 
constituents and enhancing delivery of provincial and municipal 
services. In Tamim, PRT support helped to develop the first two phases 
of a master plan for Kirkuk City, and in Babil, PRT support helped to 
develop and implement an action plan to address the approximately 6,000 
IDPs that have sought refuge from sectarian violence.
    While there are many PRT accomplishments, carrying out diplomatic 
functions and building provincial capacity in the middle of a war has 
proved a challenge, and many lessons have been learned in the process. 
Our original timeline for the program was optimistic and has been 
adjusted to reflect experience.

    Question. On June 1, the Regional Embassy Office (REO) in Mosul 
closed. Why was REO Mosul closed? How many staff worked at REO Mosul 
and what became of them? How many staff are assigned to PRT Ninewa and 
how will the closure of REO Mosul impact it? Which of the REO Mosul's 
functions will be covered by PRT Ninewa and which will not? It is my 
understanding the REO Mosul was responsible for a larger geographical 
area than PRT Nenewa. How will this larger geographical area be served 
after the closure of REO Mosul?

    Answer. Forward Operating Base (FOB) Courage, on which the REO in 
Mosul was located, was closed after the Department of Defense 
reorganization and security assessment in Iraq determined that it would 
close by June 2006. Thus, maintaining the REO in Mosul without the 
security provided by the military would have been too expensive.
    After its establishment at REO Mosul in November 2005, PRT Ninewa 
took over the majority of REO Mosul's functions. These functions and 
personnel transferred with the PRT in the move from FOB Courage to FOB 
Marez. The support staff, however, did not. While this left the PRT fit 
to operate, the loss of functions that were provided by these personnel 
has impaired the capability of the PRT. For instance, the PRT no longer 
has a dedicated IT staff member to maintain communications and the IT 
systems, and unfortunately, the support provided by FOB Marez has been 
limited at best. The REO staff not connected with PRT operations will 
either depart Iraq at the end of their assignments this summer, since 
their REO positions will be closed upon their departure, or moved to 
other locations in Iraq, including Baghdad or another REO.
    Currently there are 8 Department of State (DOS) personnel, 20 
Department of Defense (DOD) personnel and 5 DOD contractors assigned to 
PRT Ninewa. PRT Ninewa staffing and activities have not been changed by 
the closure of REO Mosul. Under the terms of the joint DOS/DOD PRT 
initiative established in the fall of 2005, DOD is to fund all 
infrastructure, life support, and operating costs for PRTs located on 
DOD installations and DOS is to fund all infrastructure, life support, 
and operating costs for those located on DOS installations. With the 
closure of REO Mosul and move to FOB Marez all DOS operational support 
has been reallocated within Iraq. The provincial outreach and political 
reporting functions of the REO are replicated in the PRT.
    REO Mosul had responsibility for Ninewa and Dohuk provinces. The 
PRT is chartered to cover only Ninewa but has retained some connection 
to Dohuk by housing the IPAO formerly responsible for Dohuk reporting. 
Once the PRT in Erbil is established, it will assume responsibility for 
Dohuk.

    Question. During the negotiations that led to the formation of the 
new government two extra constitutional mechanisms were set up to try 
to win consensus on critical issues--a 19-member national security 
council and a ministerial security council. How effective have these 
organs been? How much consensus is there within Prime Minister Maliki's 
Cabinet? What are the areas of disagreement?

    Answer. During Iraq's Govermnent formation negotiations in early 
2006, only one additional body was created to build political consensus 
on critical issues--the National Policy Council (NPC). The 18-member 
NPC had its first meeting on June 27, in which members discussed its 
structure, rules, and regulations. The next meeting, scheduled for July 
15, will take up votes on the rules of procedure and the General 
Secretary. The effectiveness of the NPC has yet to be determined as it 
has had only one meeting: However, progress in setting up the NPC 
indicates the dedication of all parties to creating a cross-sectarian 
forum for building consensus on critical issues.
    The Ministerial Committee for National Security (MCNS) was 
established earlier in 2005 as a forum for discussion on security 
issues between the Government of Iraq (Prime Minister and security 
ministers), the United States Embassy, the British Embassy, and the 
Multi-National Forces-Iraq (MNF-I). As a result of its effectiveness in 
enhancing Iraqi-United States-United Kingdom-MNF-I coordination on 
security issues, the MCNS continues to meet on a regular basis (weekly, 
or more often, as needed).
    Consensus within the Prime Minister's Cabinet on critical issues is 
evident in the broad support for the Prime Minister's government 
program. Ministers agree that several key issues are top priorities, 
including progress on security, particularly in Baghdad; the delivery 
of essential services such as electricity; and a plan for 
reconciliation through national dialog. While there is broad 
ministerial support for the government program, areas of disagreement 
exist on how best to solve the myriad challenges facing the Iraqi 
Government, such as how best to ``solve the problem of militias . . . 
politically, economically, and in terms of security'' as called for in 
the National Reconciliation and Dialogue program. Nonetheless, the NPC 
and MCNS are forums for increased dialog, providing significant 
opportunities for the Iraqi Government and other key players to come 
together and reach a consensus on critical issues.

    Question. On July 9, the Los Angeles Times reported on a recent 
assessment by State Department police training contractors. The report, 
entitled ``Year of the Police In-stride Assessment, October 2005 to May 
2006,'' says that ``despite great progress and genuine commitment on 
the part of many Ministry [of Interior] officials, the current climate 
of corruption, human rights violations, and sectarian violence found in 
Iraq's security forces undermines public confidence'' in the 
government. Please provide the committee with a copy of the State 
Department assessment described in the Los Angeles Times. What is your 
own assessment of the Iraqi police force? What changes are needed--in 
our own strategy and within the Iraqi Government--to professionalize 
the Iraqi police?

    Answer. National Security Presidential Directive 36 (NSPD 36) 
conferred primary responsibility for developing the capacity of the 
Iraq civilian police upon the DOD Central Command (CENTCOM), which has 
in turn assigned the mission to the Multi-National Security Transition 
Command-Iraq (MNSTC-I)'s Civilian Police Advisory Training Team 
(CPATT). The Department of State's Bureau for International Narcotics 
and Law Enforcement Affairs (INL) is providing police personnel to 
serve under MNSTC-I/CPATT's operational command. The report referenced 
in your question was prepared by CPATT, and we are happy to provide a 
copy of it to the committee along with this submission.
    The international community has learned through hard experience in 
the Balkans, Afghanistan, Haiti, and elsewhere that building effective 
and professional police forces that operate within democratic and human 
rights norms is challenging and takes time. Iraq is not unique in that 
respect.
    Despite the challenges, progress in developing the capacity of the 
Iraqi police has been made on many fronts, MNSTC-I is on track to reach 
its goal of training and equipping 135,000 civilian police by December 
2006. Its police development program includes 8 weeks of basic training 
for new recruits within Iraq and at the Jordan International Police 
Training Center (JIPTC); 3-week transition training for existing Iraqi 
police; and various specialized and advanced training courses. 
International Police Liaison Officers (IPLOs) supplied by INL provide 
advisory services, guidance mentoring, and technical advice.
    Iraq police instructors now conduct the vast majority of the 
instruction for the 8-week basic police skills courses taught to new 
recruits. The JIPTC has far exceeded its goal of training 32,000 Iraqi 
police, graduating 36,000 recruits to date.
    We have increased the number of International Police Liaison 
Officers (IPLOs) supplied by INL from 500 to 690 officers. This 
increase has allowed for greater access and support to Iraqi police at 
the provincial headquarters, district, and stations levels. As a 
result, the Iraq police have increased their patrols and are actively 
conducting investigations. Although still a target, the Iraq police 
have stood their ground and defended their police stations from 
insurgent attacks.
    A new police force is not built overnight. The climate is 
challenging, but there is progress.

    Question. According to a National Public Radio news report last 
month, Iraqi army recruits in some areas must pay bribes of up to $600 
to join. Please describe the vetting program for the army and police. 
How would you assess the corruption levels within the Ministries of 
Defense and Interior?

    Answer. The Government of Iraq (GOI) is increasingly taking the 
lead in the recruitment and vetting of current and prospective members 
of the Iraqi Security Forces (ISF). Although the vetting procedures for 
applicants are largely in place, some of the policies necessary to 
enforce compliance remain under development at the ministerial level.
    The payment of a recruitment bribe is not a common practice as the 
ministries have taken a number of steps to curb corruption, including 
recruitment bribes, and mentor all personnel on professional ethics and 
responsibilities as members of Iraq's Security Forces.
    The vetting process is administered by MoI and MoD separately for 
the police and military respectively. Vetting procedures for both 
ministries include criminal background checks, security screen 
interviews, and de-Baathification compliance. MoD applicants are 
immediately disqualified if they have prior level-4 Baath Party 
affiliations or a known history of human rights violations.
    The role of MNF-I is to assist Iraq in this recruitment and 
facilitate data collection and analysis, the results of which are 
passed directly to the MoI and MoD. MNF-I and the GOI continue to work 
together to further develop and refine recruitment and vetting 
processes for Iraqi Security Forces.

    Question. In your testimony you noted that sectarian violence has 
surpassed terrorism and the insurgency as the primary cause of 
instability in Iraq. What is the plan to deal with the militias? What 
is the extent of militia infiltration in the police, the Facilities 
Protections Services, the army? How will the militias be purged from 
the security forces?

    Answer. It is important to state upfront that militia units are not 
absorbed into the Iraqi Security Forces (ISF). Individuals are 
recruited and vetted in accordance with Government of Iraq (GOI) 
policies and distributed throughout the ISF to create more ethnically 
and religiously diverse forces. The Iraqi military has developed an 
oath in which all recruits sear allegiance to the country of Iraq and 
loyalty to the principles of the Constitution.
    The U.S. Government is committed to working closely with 
international partners and the GOI to build a nation whose unity is not 
threatened by violence from armed militias. A continued commitment of 
resources and political support to assist the new GOI with the 
implementation of a solution to this problem is imperative. 
International/regional neighbor action is also critical in stemming 
material support for militias.
    Solutions will require coordinated and simultaneous actions across 
the political, economic, and security tracks. The Government of Iraq 
must lead this effort, in the context of a national reconciliation. 
Multi-National Forces-Iraq and the Embassy are developing a suggested 
plan to assist Iraqi leaders with the militia problem, which would 
include establishing a comprehensive civil-led political-security 
hierarchy. Any solution will need to address militias at the local, 
provincial, and national levels simultaneously. Standing up and 
building local respect for ISF in areas currently under militia control 
is another critical element of a successful plan.
    A viable reintegration plan will require political, economic, and 
educational reforms designed to help members of these groups transition 
back into society. Our suggested plan will address jobs, integration 
into Iraqi military and police forces, and influencing those both 
inside and outside of Iraq who are supporting the militias. Dismantling 
of armed militias will be a substantial challenge; each has a unique 
power base and ties to political and religious leaders. Solutions 
require a conditions-based approach and may be incremental.

    Question. In your speech at the Center for Strategic and 
International Studies on July 11, you said, ``We are implementing plans 
to accelerate the evolution of the Iraqi Army from a light force that 
is dependent on the coalition for logistics and combat support into a 
heavier force that not only can take on well-armed enemy units more 
effectively but also can operate with less reliance on the coalition.'' 
How do we ensure that in arming the Iraqi Army we are not providing 
arms that will eventually work their way to insurgent or militia 
groups? How dependent are Iraqi Army units upon American support? How 
long will it be before the Ministry of Defense is capable of exerting 
control over significant numbers of forces? What is the Iraqi role in 
planning operations?

    Answer. Coalition Military Transition Teams are embedded with every 
Iraqi battalion, brigade, and division, and provide daily guidance and 
mentorship. In addition Iraqi units are partnered with coalition units. 
These partnerships, combined with the expertise and leadership taught 
through the institutional base, are critical for development of both 
unit proficiency and leadership essential to increased operation 
effectiveness. Through the embedded transition teams and coalition 
partnerships the USG is assured of Iraqi weapons accountability.
    Multinational Corps-Iraq (MNC-I) continues to provide logistic 
support to the Iraqi Armed Forces on a regular basis. Some self-
reliance is achieved with Iraqi Army units using their own process; 
however there is still sufficient work to be accomplished. 
Multinational Forces-Iraq continues to work with MNC-I and 
Multinational Security Transition Command-Iraq (MNSTC-I) to help the 
Iraqi Government develop a defense logistic system. MNSTC-I has 
recently formed a transition working group tasked with ensuring that 
MoD properly supports all ISF life support requirements. Of the nine 
planned Motorized Transportation Regiments (MTR) that provide mobility 
and sustainment support for the Iraqi forces, four are fully 
operationally capable. The MTUs will not be fully fielded until 
December 2006.
    As of July 24 the Iraqi Army has 4 division headquarters, 21 
brigades, and 75 battalions in the lead. Iraqi Army Forces have 
demonstrated an increased capability to plan and execute 
counterinsurgency operations. The number of counterinsurgency 
operations conducted independently by Iraqi forces as a percentage of 
total combat operations continues to increase steadily.

    Question. For some time the administration has said that its plans 
to withdraw its forces from Iraq will be based on conditions on the 
ground. Since the December elections, American troop levels have 
declined by approximately 30,000. Yet, during this time violence rates 
have to be increasing, particularly in the capital city. What specific 
criteria will be used to make the determination on American troop 
levels?

    Answer. In the immediate term, our overall goal, as the President 
has said, is to stand down our forces as the Iraqi forces stand up. As 
Iraqis take on more responsibility for security, international forces 
will increasingly move to supporting roles in most areas. In many 
cases, this may allow for personnel reductions or delays in previously 
scheduled deployments.
    A determination of specific Iraq units rated as ``Iraqi Lead with 
Coalition Support'' marks the point at which a unit can control its own 
area of responsibility and, therefore, allow coalition units to focus 
elsewhere. As of May 15, 2006, there were 2 Iraqi divisions, 16 
brigades, and 63 Army and National Police battalions with security lead 
in their areas of responsibility.
    While one of the conditions for transfer of security responsibility 
at the provincial level to Iraq is an assessment of threat levels, 
there are other conditions which bear on that decision: Capability of 
the Iraqi Security Forces (such as the Iraqi Lead with Coalition 
Support category above), capability of Iraqis to govern, and readiness 
of MNF-I forces to support the ISF.
    It is the combination of all of these factors, not just the level 
of violence, that leads to a decision of whether or not to transfer a 
province to Iraqi control and remission MNF-I to a another role.
    Additionally, as the Iraqi Security Forces become increasingly 
capable of planning and conducting security operations independent of 
the Multi-National Forces, we pledge our continued support to them and 
the Government of Iraq as they seek to provide peace and prosperity for 
all Iraqis.

    Question. One provision of the National Reconciliation program is a 
review of the de-Baathification program. How will the new program be 
structured? Will there be an appeals process? How will the program's 
fairness be assured? Given that Prime Minister Maliki was involved in 
implementing the earlier, stricter de-Baathification policies, how 
committed is he to the review? How much goodwill do you expect the 
program to win from disaffected Sunni Arabs? How much resistance is 
there to the review within the United Iraqi Alliance?

    Answer. One of the key provisions of Iraq's National Reconciliation 
and Dialogue initiative, launched by Prime Minister Maliki on June 25, 
is a reconsideration of de-Baathification. Announcement of the 
Reconciliation Initiative was only the first step in the development of 
a detailed plan. De-Baathification program structure and operating 
principles will be developed in the course of the national dialog on 
reconciliation. The U.S. Government will remain engaged with the Iraqi 
Government and other Iraqi leaders to encourage rapid implementation of 
the de-Baathification review, as well as a fair de-Baathification 
process.
    Iraqis from across the political spectrum, including Sunni groups 
such as the National Dialogue Council, have made public statements in 
support of the Reconciliation Initiative. Prime Minister Maliki 
personally vetted the elements of the initiative before he announced 
the program to the Council of Representatives, and, given his 
overarching goal of reconciling Iraqis, we have every reason to believe 
that he is committed to de-Baathification reform. Sunni leaders have 
been lobbying for de-Baathification reform for months, and positive 
Sunni statements about the reconciliation initiative (and increased 
Sunni panicipation in the process) flow at least in part from the GOI's 
evident willingness to reconsider de-Baathification. Some Shia hard-
liners are wary of de-Baathification reform, but Shia leaders have been 
publicly supportive of the initiative, indicating a willingness to 
compromise in order to help bring Iraq's various communities together 
and stem Iraq's sectarian violence.
    The Iraqi Government and the United States will remain engaged to 
ensure that reconciliation is a success.

    Question. According to a recent United Nations report, there are 
roughly 1.3 million internally displaced people in Iraq, at least 
150,000 of whom have been displaced in sectarian violence since the 
Samarra Mosque bombing in February. What is the status of these 
internally displaced people? How is humanitarian assistance being 
delivered to them? What is being done to facilitate their return home? 
For those unable to return home, what is being done to find permanent 
housing? What is being done to tamp down the level of sectarian 
violence?

    Answer. According to the Ministry of Displacement and Migration 
(MoDM) the primary reasons for displacement since the bombing of the Al 
Askariyya Mosque in Samarra in February are direct or indirect threats 
or attacks on families based on sectarian ties. To date, most of the 
internally displaced persons (IDPs) have been accommodated by host 
families and the support network of mosques. The humanitarian aid 
community has established a number of camps, however the number of IDPs 
in these camps, while fluid, remain relatively low. Most Iraqi IDPs as 
well as the humanitarian assistance community view the camps as a last 
resort and seek host family solutions.
    At this time, U.S. Government assistance to IDPs falls primarily 
under the purview of USAID and its implementing partners. Since April 
2003, USAID has provided $183,000,000 in assistance, including the 
recent contribution of $7.1 million for an IDP rapid response 
capability. These funds are expected to last through December 2006. 
Since the Al Askariyya Mosque bombing in February, USAID has provided 
humanitarian assistance through its four implementing partners to more 
than 100,000 IDPs displaced by sectarian violence. In FY 2006, the 
State Department provided UNHCR with $7.9 million and ICRC with $5.6 
million, which indirectly benefits IDPs and is considering a $1.3 
million contribution to a USAID implementing partner to continue 
building the capacity of MoDM.
    The MoDM is the primary mechanism for Government of Iraq (GOI) to 
respond to IDP emergencies. The MoDM coordinates the Iraq Government 
response by assessing needs, collecting data, monitoring IDP movements, 
and coordinating IDP assistance activities. Local charitable 
organizations, particularly in the south, are engaged in providing 
humanitarian assistance to IDPs and other vulnerable groups in Iraq. 
The United Nations Commissioner for Refugees (UNHCR) and the 
International Committee for the Red Cross (ICRC) also provide IDP 
assistance, although they are not budgeted for protracted IDP 
assistance inside Iraq. The U.S. military also has the capacity to 
support IDPs for short periods of time under special circumstances, 
however, most IDPs are wary of utilizing this assistance out of fear 
that they risk being targeted as collaborators.
    It is unclear at this time how many IDPs would return to their 
homes if they could. While some IDPs are trying to sell or rent their 
homes, indicating a reluctance to return, the majority have not made 
any decision to return or seek permanent resettlement. Permanent 
resettlement of IDPs has not yet been explored.
    The increase in sectarian violence is a major concern to us and is 
one of the prime issues raised at every level with Iraqi governmental 
and political leaders. The violence in Iraq only underscores the 
importance of our mission there. Helping the Iraqi Security Forces 
develop their capacity to secure their own country while carrying out a 
campaign to defeat terrorists and neutralize the insurgency is and 
continues to be our objective.

    Question. On July 8, the Financial Times reported that the United 
States is seeking to establish a high financial threshold for other 
countries to participate in the so-called ``international compact'' for 
Iraq. The article says: ``The United States had reportedly suggested a 
threshold of $450 million in assistance pledges for countries to take 
part. But it was lowered to $200 million, so that Kuwait, UAE, Saudi 
Arabia, Japan, South Korea, Italy, Spain, United Kingdom, United 
States, and Canada will be invited, as well as France and Germany--due 
to the amount of debt they have forgiven Iran will be a member but not, 
at this stage--Russia or China. There are questions over Egypt, amid 
concern that it could prove unhelpful if left outside the tent.'' Why 
have we proposed a threshold to participate in the compact? Is this the 
best way to ensure other countries join in the search for a solution in 
Iraq? Why have close allies such as Great Britain opposed this 
approach? Why aren't political and security issues being included as 
central items in the compact?

    Answer. The Iraq Compact is an agreement between the Government of 
Iraq on one side and the international community, represented by the 
United Nations, on the other. The Financial Times article misses some 
important ways the international community will participate in the 
compact. First, the Government of Iraq and the United Nations discussed 
thresholds only in regard to a Preparatory Group that will advise on 
formulating the compact document. The compact itself is open to the 
participation of the entire international community, and the United 
States and all of Iraq's allies will help the Iraqi Government and the 
United Nations attract the broadest possible participation in building 
this new framework.
    Twenty countries and international and regional official financial 
institutions have already been invited to be members of the 
``Preparatory Group'' for the compact. The Preparatory Group is 
assisting the United Nations and Government of Iraq in formulating the 
compact, and helping enlist broader participation and support. The 
drafting of the compact is being done by an executive committee 
involving the World Bank, United Nations, and the relevant Iraqi 
ministries and provinces.
    Important to the success of the compact will be outreach by Iraq 
and the United Nations to enlist the participation and support of the 
Gulf Arab countries and financial institutions in that region. We are 
encouraging Iraq and the United Nations in these efforts.
    Simultaneous progress on political, economic, and security issues 
has long been an acknowledged reality for success in Iraq. The Iraq 
compact focuses primarily on reforming Iraq's political economy, and 
will help bring hope through greater economic prosperity. This kind of 
progress is essential to build better political cooperation and enhance 
security. The Iraqis and the United Nations recognize that economic 
success is likewise contingent upon Iraq making progress with its 
political and security issues as well. The compact will encourage the 
forward-looking aspirations that Prime Minister Maliki has announced, 
and in some areas is already implementing, in major initiatives on 
security and reconciliation.

    Question. An oil committee has been established to report back on 
questions such as the sharing of revenues and central government 
control over oil revenues. How much progress has the committee made? 
When do you expect its work to be done? How much independence does the 
committee have? What are the most contentious issues the committee is 
facing? What mechanism can be used to give the Sunni Arabs and other 
minorities a fixed share of the oil revenues?

    Answer. The Government of Iraq has reformed the National Energy 
(NEC) under the leadership of Deputy Prime Minister for Economic 
Affairs, Barham Salih. The NEC membership includes the Iraqi Ministry 
of Oil, the Iraqi Ministry of Finance, and the Kurdish Ministry of 
Natural Resources. The NEC will look to the respective ministries to 
provide guidance on the drafting of regulations for the creation of a 
national oil company and the sharing of oil revenues. The U.S. 
Government is willing to provide legal advice to the Iraqi committees 
if asked.
    The most contentious issue will be how to distribute revenues. Many 
issues have been discussed, and the Iraqis continue to look at 
different models to find what serves their country best.

                                  <all>

</pre></body></html>
